<html>
<title> - THE TILLMAN FRATRICIDE: WHAT THE LEADERSHIP OF THE DEFENSE DEPARTMENT KNEW</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 THE TILLMAN FRATRICIDE: WHAT THE LEADERSHIP OF THE DEFENSE DEPARTMENT 
                                  KNEW

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 1, 2007

                               __________

                           Serial No. 110-49

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform
                                ----------
                        U.S. GOVERNMENT PRINTING OFFICE 

41-930 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






































             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director


























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 1, 2007...................................     1
Statement of:
    Abizaid, General John P., former Commander, U.S. Central 
      Command....................................................    29
    Brown, General Bryan Douglas, former Commander, U.S. Special 
      Operations Command.........................................    29
    Myers, General Richard, former Chair, Joint Chiefs of Staff..    29
    Rumsfeld, Donald, former Secretary of Defense................    16
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    14
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, Army Regulation 600-8-1...............    45
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Letter dated June 28, 2002...............................    40
        Memo dated June 25, 2002.................................    42
    Rumsfeld, Donald, former Secretary of Defense:
        Letter dated July 26, 2007...............................   187
        Prepared statement of....................................    18
    Waxman, Chairman Henry A., a Representative in Congress from 
      the State of California, prepared statement of.............     5


 THE TILLMAN FRATRICIDE: WHAT THE LEADERSHIP OF THE DEFENSE DEPARTMENT 
                                  KNEW

                              ----------                              


                       WEDNESDAY, AUGUST 1, 2007

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
room 2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Maloney, Cummings, 
Kucinich, Davis of Illinois, Tierney, Clay, Watson, Lynch, 
Yarmuth, Braley, Norton, Cooper, Van Hollen, Hodes, Sarbanes, 
Welch, Davis of Virginia, Burton, Shays, McHugh, Mica, Platts, 
Duncan, Turner, Issa, McHenry, Bilbray and Sali.
    Staff present: Phil Schiliro, chief of staff; Phil Barnett, 
staff director and chief counsel; Kristin Amerling, general 
counsel; Karen Lightfoot, communications director and senior 
policy advisor; David Rapallo, chief investigative counsel; 
John Williams, deputy chief investigative counsel; David 
Leviss, senior investigative counsel; Suzanne Renaud and Steve 
Glickman, counsels; Earley Green, chief clerk; Teresa Coufal, 
deputy clerk; Matt Siegler, special assistant; Caren Auchman, 
press assistant; Zhongrui ``JR'' Deng, chief information 
officer; Leneal Scott, information systems manager; Will 
Ragland, staff assistant; Bonney Kapp, fellow; David Marin, 
minority staff director; Larry Halloran, minority deputy staff 
director; Jennifer Safavian, minority chief counsel for 
oversight and investigations; Keith Ausbrook, minority general 
counsel; Steve Castor and A. Brooke Bennett, minority counsels; 
Susie Schulte, minority senior professional staff member; 
Christopher Bright and Allyson Glandford, minority professional 
staff members; Nick Palarino, minority senior investigator and 
policy advisor; Patrick Lyden, minority parliamentarian and 
member services coordinator; Brian McNicoll, minority 
communications director; Benjamin Chance, minority clerk; and 
Ali Ahmad, minority deputy press secretary.
    Chairman Waxman. I want to welcome everyone to our hearing 
today. I do want to announce this is a hearing of Congress, and 
not a rally or a demonstration. Please keep that in mind.
    As of last night, 4,063 of our bravest soldiers have died 
in the Afghan and Iraq wars. Each death has its own compelling 
story. Each brought incalculable grief for the soldier's family 
and friends, and each is a tragic and irreplaceable loss for 
our country.
    In today's hearing we will continue our investigation of 
the misinformation surrounding the death of one of those 
soldiers, Corporal Pat Tillman. We are focused on Corporal 
Tillman's case because the misinformation was so profound and 
because it persisted so long. And if that can happen to the 
most famous soldier serving in Iraq and Afghanistan, it leaves 
many families and many of us questioning the accuracy of the 
information from many other casualties.
    To date there have been seven investigations into Corporal 
Tillman's case, yet the Army announced sanctions against--
yesterday the Army announced sanctions against six officers, 
while important questions still remain unanswered. Normally in 
investigations we learn more, and the more we learn, the easier 
it is to understand what actually happened. The opposite is 
true in the Tillman case. As we learn more, everything that 
happened in 2004, from April 22nd, the day Pat Tillman died, to 
May 29th, the day the Defense Department finally announced this 
was a friendly fire incident, makes less sense.
    One possible explanation is that a series of 
counterintuitive, illogical blunders unfolded, accidentally and 
haphazardly. As the Army noted yesterday, in seven 
investigations into this tragedy, not one has found evidence of 
a conspiracy by the Army to fabricate a hero, to deceive the 
public or mislead the Tillman family about the circumstances of 
Corporal Tillman's death.
    The other possible explanation is that someone or some 
group of officials acted deliberately and repeatedly to conceal 
the truth. Kevin Tillman, who served with his brother in 
Afghanistan, expressed that view in our last hearing. He said 
April 2004 was turning into the deadliest month to date in the 
war in Iraq. American commanders essentially surrendered 
Fallujah to members of the Iraq resistance. In the midst of 
this, the White House learned that Christian Parenti, Seymour 
Hersh, and other journalists were about to reveal a shocking 
scandal involving massive and systemic detainee abuse in a 
facility known as Abu Ghraib. Revealing that Pat's death was 
fratricide would have been yet another political disaster 
during a month already swollen with political disasters, and a 
brutal truth that the American public would undoubtedly find 
unacceptable. So the facts needed to be suppressed, and an 
alternate narrative had to be constructed. This freshly 
manufactured narrative was then distributed to the American 
public, and we believe the strategy had the intended effect. It 
shifted the focus from the grotesque torture at Abu Ghraib to a 
great American who died a hero's death.
    Well, that was the view of Kevin Tillman. Our committee's 
challenge is to determine which explanation is true. At our 
last hearing, Specialist Bryan O'Neal testified. Specialist 
O'Neal was standing next to Corporal Tillman during the 
firefight. He knew immediately that this was a case of friendly 
fire, and described what happened in an eyewitness statement he 
submitted up his chain of command immediately after Corporal 
Tillman's death.
    But Specialist O'Neal told us something else. After he 
submitted his statement, someone else rewrote it. This unnamed 
person made significant changes that transformed O'Neal's 
account into an enemy attack. We still don't know who did that 
and why he did it. We just know that although everyone on the 
ground knew this was a case of friendly fire, the American 
people and Tillman family were told that Corporal Tillman was 
killed by the enemy, and that doesn't make any sense.
    Our focus has been to look up the chain of command, but 
that has proved to be as confounding as figuring out what 
happened to Specialist O'Neal's witness statement. We have 
tried to find out what the White House knew about Corporal 
Tillman's death. We know that in the days following the initial 
report, at least 97 White House officials sent and received 
hundreds of e-mails about Corporal Tillman's death and how the 
White House and the President should respond. Now, there is 
nothing sinister about this.
    I want that sign down.
    There is nothing sinister about this, and there is nothing 
sinister in the e-mails we have received. Corporal Tillman is a 
national hero. It makes sense that White House officials would 
be paying attention. But what doesn't make sense is that weeks 
later, in the days before and after the Defense Department 
announced that Corporal Tillman was actually killed by our own 
forces, there are no e-mails from any of the 97 White House 
officials about how Corporal Tillman really died.
    The concealment of Corporal Tillman's fratricide caused 
millions of Americans to question the integrity of our 
government, yet no one will tell us when and how the White 
House learned the truth.
    Today we will be examining the actions of the senior 
leadership at the Department of Defense. Much of our focus will 
be on a ``Personal For'' message, also known as a P-4, that 
Major General Stanley McChrystal sent on April 29, 2004. This 
P-4 alerted his superiors that despite press reports that 
Corporal Tillman died fighting the enemy, it was highly 
possible that Corporal Tillman was killed by friendly fire.
    Well, three officers received this P-4 report: Lieutenant 
General Kensinger, General Abizaid and General Brown. General 
Kensinger refused to appear today. His attorney informed the 
committee that General Kensinger would not testify voluntarily, 
and, if issued a subpoena, would seek to evade service.
    The committee did issue a subpoena to General Kensinger 
earlier this week, but U.S. Marshals have been unable to locate 
or serve him. So we will not be able to ask General Kensinger 
what he did with the P-4. We won't be able to ask him why he 
didn't notify the Tillman family about the friendly fire 
investigation, and we won't be able to ask him why he did 
nothing to correct the record after he attended Corporal 
Tillman's memorial service in early May and he heard statements 
he knew were false.
    Fortunately, we do have the other two recipients of the P-
4, General Abizaid and General Brown, here this morning, and we 
will ask them what they did after they received General 
McChrystal's message.
    We are also grateful that General Myers and Secretary 
Rumsfeld, who rearranged his schedule so that he could be here 
today, are here to testify. And we are pleased that you have 
taken this opportunity to be with us.
    Members of the committee, like Americans across the Nation, 
are looking for answers to simple questions. Who knew about the 
friendly fire attack? Why wasn't the family told? Why did it 
take over a month for the leadership of the Defense Department 
to tell the public the truth? Today I hope we will at least get 
answers to these questions and bring clarity to this 
investigation.
    I commend the Army for its continued investigation into the 
Tillman case, and Army Secretary Geren for the forthright 
approach he is taking. Progress has been made, but we still 
don't know who was responsible for the false information and 
what roles, if any, the Defense Department and the White House 
had in the deceptions. We owe it to the Tillman family and to 
the American people to get the answers to these fundamental 
questions.
    [The prepared statement of Chairman Henry A. Waxman 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Waxman. I want to now recognize Mr. Davis before 
we call on our witnesses.
    Mr. Davis of Virginia. Thank you, Mr. Chairman. We continue 
to join you today in pursuing key aspects of this 
investigation, because our duty to the Nation's honored dead 
and to their families is solemn and absolute. As a Nation and 
as a Congress, we owe them our unity, our honesty and our 
industry, untarnished by self-interest or partisanship. As long 
as the committee is seeking authoritative answers to necessary 
questions about the death of Corporal Pat Tillman, we will be 
constructive partners in that effort.
    This much we know. There are no good answers to the 
necessarily tough questions raised about how the facts of this 
friendly fire incident were handled, by whom and when. 
Testimony from our previous hearing and the results of six 
separate Army investigations all showed the tragic truth can 
only fall somewhere between screw-up and cover-up, between 
rampant incompetence and elaborate conspiracy. And once you are 
descending that continuum, it almost doesn't matter whether the 
failure to follow Army regulations about updated casualty 
reports and prompt family notifications was inadvertent, 
negligent or intentional.
    As it has been observed, sufficiently advanced incompetence 
is indistinguishable from malice, and the facts uncovered so 
far clearly prove this was advanced incompetence, serial 
ineptitude up and down the Army and civilian chains of command.
    Still, confounding questions persist about how and why the 
specifics of so high profile a death were so slowly and badly 
conveyed, even after top Pentagon leaders and the White House 
were known to be interested.
    Since this committee's first hearing on these issues 4 
months ago, the committee has received over 13,000 pages of 
documents from the White House, the Department of Defense, the 
Inspector General of the Department of Defense, and the 
Department of the Army. Committee staff has conducted over a 
half dozen interviews with those involved. Nothing in that 
material suggests the Defense Secretary or the White House were 
aware Tillman's death was a friendly fire incident before late 
May, when his grieving family and the rest of the Nation were 
finally told. But it is still not clear how or why the 
Secretary, other defense leaders, and the White House 
speechwriters remained impervious to the emerging truth while 
so many others knew Corporal Tillman's death was a fratricide.
    Yesterday another Army review by General William S. Wallace 
was conducted, and the secretary of the Army imposed 
disciplinary action against senior officers involved in this 
sad cascade of mistakes, misjudgments, and misleading 
statements. Consistent with the Pentagon Inspector General's 
report, General Wallace found no evidence anyone in the chain 
of command acted intentionally to cover up the fact Corporal 
Tillman had died by friendly fire. Rather, the report 
determined, as had others before, the delay in notifying the 
Tillman family of the friendly fire investigation resulted from 
well-intentioned but clearly wrong decisions to wait until all 
investigations were complete. That, to me, is one of the more 
troubling aspects in this case, that the default setting for 
Army officers, lawyers, and others was secrecy.
    This was their first friendly fire incident. No one 
apparently bothered to read the regulations requiring immediate 
changes to the casualty report, which in turn would have 
triggered additional information going to the family, and 
presumably others. Yesterday the Army Secretary said timely and 
accurate family notification is a duty based on core Army 
values. But in this instance, undeniably pernicious 
institutional forces devalued that ideal. Why? What has been 
done to cure that organizational bias against the diligence and 
candor owed the Tillman family and every American?
    I believe the job of this committee is to ask the tough 
questions and let the chips fall where they may. It is our not 
always envious job to root out the facts and hold people 
accountable. That is what we are doing today. As I noted 
earlier, nothing in our inquiry thus far demonstrates the 
Defense Secretary or the White House were aware this a was a 
friendly fire incident before late May. That we have not 
learned otherwise may perplex those who are assuming the worst, 
given the gross mishandling of this tragedy. But while we 
continue to gather information and we together will leave no 
stone unturned, let's not let these assumptions color or cloud 
what our investigation is actually finding.
    All our witnesses have served our Nation with distinction, 
and we are grateful for their continued service and support of 
this committee's oversight. I am particularly glad former 
Defense Secretary Rumsfeld decided to appear today. His 
perspective is an indispensable element of our efforts to 
complete this inquiry. We look forward to his testimony and 
that of all today's witnesses as we seek answers to these 
painful, but essential questions.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you very much, Mr. Davis.
    [The prepared statement of Hon. Tom Davis follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Waxman. Let me, before I recognize our witnesses, 
remind everyone in the audience that this is a serious 
congressional investigation. If anyone holds up signs, we want 
to tell them not do it. And if they do, we will ask them to 
excuse themselves from the hearing room. We will insist on 
proper decorum.
    I join with Mr. Davis in thanking each of our witnesses for 
being here today, and certainly in the case of Secretary 
Rumsfeld, who went to great pains to be here. And I appreciate 
the fact that he did come. And also to all three of the 
generals that are with us today, we want to hear from you.
    It is the practice of this committee for all witnesses that 
we administer the oath, and I would like to ask all of you to 
please stand at this time to take the oath.
    [Witnesses sworn.]
    Chairman Waxman. The record will reflect that each of the 
witnesses answered in the affirmative.
    Mr. Rumsfeld, Mr. Secretary Rumsfeld, why don't we start 
with you. There is a button on the base of the mike. We would 
like if you would make your presentation. If any of you have 
submitted written testimony, the written testimony will be in 
the record in full. And we want to hear what you have to say.

   STATEMENT OF DONALD RUMSFELD, FORMER SECRETARY OF DEFENSE

    Mr. Rumsfeld. Thank you, Mr. Chairman, members of the 
committee. You have requested that we appear today to discuss 
our knowledge of the circumstances surrounding the death of 
U.S. Army Corporal Patrick Tillman.
    First, I want to again extend my deepest sympathies to the 
Tillman family. Corporal Tillman's death, and the deaths of 
thousands of men and women who have given their lives in our 
Nation's service, have brought great sorrow to the lives of 
their families and their loved ones. Theirs is a grief felt by 
all who have had the privilege of serving alongside those in 
uniform. The handling of the circumstances surrounding Corporal 
Tillman's death could only have added to the pain of losing a 
loved one. I personally, and I am sure all connected with the 
Department, extend our deep regrets.
    One of the Department of Defense's foremost 
responsibilities is to tell the truth to some of the 3 million 
military, civilian and contract employees who dedicate their 
careers to defending our Nation; to the military families who 
endure the extended absence of their fathers, mothers, 
husbands, wives, sons and daughters; and to the American 
people, for whom all of those connected to the Department of 
Defense strive each day to protect.
    In March 2002, early in my tenure as Secretary of Defense, 
I wrote a memo for the men and women of the Department of 
Defense titled ``Principles for the Department of Defense.'' I 
have attached a copy of that memo to my testimony. You will 
note that principle No. 1, the very first, addresses the points 
that both you and Mr. Davis have made. It says, ``Do nothing 
that could raise questions about the credibility of DOD. 
Department officials must tell the truth and must be believed 
to be telling the truth or our important work is undermined.''
    Mr. Chairman, in your invitation to today's hearing, you 
asked that we be prepared to discuss how we learned of the 
circumstances surrounding Corporal Tillman's death, when we 
learned of it, and with whom we discussed it. I am prepared to 
respond to the questions which pertain to these matters to the 
best of my ability.
    In December 2006, I sent a letter to the Acting Inspector 
General of the Department of Defense, Mr. Thomas Gimble, 
describing my best recollection of those events, which by that 
point had occurred some 2\1/2\ years previously. The committee 
has been given a copy of that letter, and I would like to quote 
a portion of it. ``I am told that I received word of this 
development sometime after May 20, 2004, but my recollection 
reflects the fact that it occurred well over 2 years ago. As a 
result, I do not recall when I first learned about the 
possibility that Corporal Tillman's death might have resulted 
from fratricide.'' I went on to say, ``I am confident that I 
did not discuss this matter with anyone outside of the 
Department of Defense.'' Obviously, during that early period; I 
have subsequently to that period.
    What I wrote in December 2006 remains my best recollection 
today of when I was informed and with whom I talked before May 
20th. I understand that the May 20, 2004, date was shortly 
before the Tillman family was informed of the circumstances on 
May 26, 2004.
    Your invitation to appear before the committee also asked 
about my knowledge of a ``Personal For'' or P-4 message dated 
April 29, 2004. That message was not addressed to me. I don't 
recall seeing it until recent days, when copies have been made 
available. There are a great many, indeed many thousands, of 
communications throughout the Department of Defense that a 
Secretary of Defense does not see.
    I understand that the Acting Inspector General's report 
concluded that there were errors among some of those 
responsible for the initial reports. Any errors in such a 
situation are most unfortunate. The Tillmans were owed the 
truth, delivered in a forthright and timely manner. And 
certainly the truth was owed to the memory of a man whose 
valor, dedication, and sacrifice to his country remains an 
example for all.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you very much, Mr. Rumsfeld.
    [The prepared statement of Mr. Rumsfeld follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. General Myers.

STATEMENT OF GENERAL RICHARD MYERS, FORMER CHAIR, JOINT CHIEFS 
                            OF STAFF

    General Myers. Thank you, Mr. Chairman. The only thing I 
would like to say is just offer my condolences as well to the 
Tillman family not only for the loss, but for the issues that 
they have been struggling with since then, and the whole 
notification issue that is being looked at by this committee. 
They clearly don't deserve that for Pat Tillman's memory and 
for what he meant to this country and to our Armed Forces.
    And I would like--as the Secretary said, I would like to 
also add my condolences, of course, to all those who have 
sacrificed to keep us free, the men and women in uniform.
    Thank you, Mr. Chairman.
    Chairman Waxman. General Abizaid.

 STATEMENT OF GENERAL JOHN P. ABIZAID, FORMER COMMANDER, U.S. 
                        CENTRAL COMMAND

    General Abizaid. Thank you, Mr. Chairman.
    Certainly we have lost a lot of good young men and women in 
the past several years of combat. We have a tough fight ahead 
of us, and we will lose more. I understand that one of the most 
important things we can do is help our families through the 
grieving process. That requires accurate and timely information 
that goes to them, and it certainly didn't happen in the case 
of Corporal Tillman.
    It is unfortunate that we did not handle it properly. 
Having had a son-in-law who was wounded in combat, and having 
gone through the notification process myself, I can only tell 
you it is a difficult process in the best of times.
    We will answer your questions to the best of our ability. 
Thanks.
    Chairman Waxman. Thank you.
    General Brown.

  STATEMENT OF GENERAL BRYAN DOUGLAS BROWN, FORMER COMMANDER, 
                U.S. SPECIAL OPERATIONS COMMAND

    General Brown. Mr. Chairman, I would also like to add my 
condolences to the Tillman family and to how poorly the 
notification was done. I would also say that, like General 
Abizaid to my right, I also had a son-in-law wounded, so I know 
what that call sounds like. And my son-in-law, in fact, was 
wounded by fratricide in the opening days of Afghanistan, so I 
know how important it is and how the impact is on the family, 
although I didn't lose my son-in-law.
    So I am ready for your questions, Mr. Chairman.
    Chairman Waxman. OK. Thank you.
    Well, I want to begin the questioning by framing the issue 
for us. The basic point that we want to learn is what did the 
senior military leadership know about Corporal Tillman's death, 
when did they know it, and what did they do after they learned 
it?
    At our last hearing we reviewed a document known as 
Personal For, or a P-4 memo. This memo was sent on April 28, 
2004, by Major General Stanley McChrystal, the Commander of the 
Joint Task Force in Afghanistan, where Corporal Tillman was 
killed in 2004. General McChrystal sent this P-4 memo to three 
people: General Abizaid, from Central Command; General Brown, 
from U.S. Special Operations Command; and General Kensinger, 
from the Army Special Operations Command. The purpose of this 
P-4 was to have one or more of these generals warn President 
Bush, the Secretary of the Army, and other national leaders 
that it was, ``highly probable or highly possible that an 
ongoing investigation was about to conclude that Corporal 
Tillman was killed by his own unit.''
    General McChrystal explained why this P-4 message was so 
important. He stated, ``I felt it was essential that you 
received this information as soon as we detected it in order to 
preclude any unknowing statements by our country's leaders 
which might cause embarrassment if the circumstances of 
Corporal Tillman's death became public.''
    Well, this P-4 memo was sent on April 29th, 1 week after 
Corporal Tillman's death. This was 4 days before the memorial 
service, at which the Tillmans and the Nation were told Pat 
Tillman was killed by hostile fire. And this was an entire 
month before the Pentagon told the Tillman family and the 
public that Corporal Tillman was killed by U.S. forces.
    For today's hearing, we invited all of the recipients of 
the P-4 to determine how they responded. Did they, in fact, 
alert the White House? Did they alert the Army Secretary, the 
Secretary of Defense? Did they pass it up the chain of command? 
One of the addressees is General Kensinger. He refused to 
appear voluntarily, and apparently evaded service of the 
committee's subpoena, so he is not here today, but we do have 
two of the other addressees of the P-4 memo, General Brown and 
General Abizaid, as well as General Myers, the former Chairman 
of the Joint Chiefs of Staff, and Secretary Rumsfeld. They are 
appearing here today voluntarily, and I thank you all for being 
here. They have had distinguished careers and have served our 
Nation with honor. They are continuing to serve their country 
by cooperating with this congressional investigation.
    General Abizaid, let me start with you. If you look closely 
at the P-4, the third and fourth lines actually have different 
levels of addressees. General Brown and General Kensinger were 
listed as info, which I understand is the equivalent of a CC, a 
carbon copy. But you were listed as a ``to.'' So General 
McChrystal really wanted this to go to you. When did you 
receive this memo?
    General Abizaid. I believe that the earliest I received it 
was on the 6th of May.
    Chairman Waxman. 6th of May. And why did it take so long?
    General Abizaid. Well, let me explain the timing sequence, 
if I may, Congressman, starting from the 22nd, as I saw it. 
Would that be helpful?
    Chairman Waxman. Sure.
    General Abizaid. On the 22nd, the incident occurred. I 
believe about the 23rd, General McChrystal called me and told 
me that Corporal Tillman had been killed in combat, and that 
the circumstances surrounding his death were heroic. I called 
the chairman and discussed that with the chairman.
    Throughout that period I was in Iraq, Qatar, etc. On the 
28th, I went to Afghanistan. In Afghanistan, I met with General 
Olson and General Barnow, our commanders there, and I also had 
the chance to talk to the platoon leader, who was Corporal 
Tillman's platoon leader, and I asked him about the action, and 
he gave no indication that there was a friendly fire issue.
    On the 29th, General McChrystal sent his message, and it 
went to my headquarters in Tampa, and it was not retransmitted 
for reasons of difficulties with our systems within the 
headquarters until the 6th at the earliest, and it could have 
been later that I received it. But it is my recollection then 
on the 6th, probably the 6th, it is a guess, I can't be sure 
exactly the date, I called the chairman. I told the chairman 
about having received General McChrystal's message that 
friendly fire was involved.
    Chairman Waxman. You immediately told the chairman?
    General Abizaid. As soon as I saw the message. I can't 
remember how the existence of the message came to my attention, 
but it was known within my staff that something was out there, 
and we found it. I called the chairman. I told the chairman 
about it, and it was my impression from having talked to the 
chairman at the time that he knew about it.
    Chairman Waxman. OK. Your staff seemed to know about it. 
Was that they knew there was a memo, or they heard it might 
have been friendly fire that killed him?
    General Abizaid. I think they had heard there was an 
investigation ongoing within the Joint Special Operations 
Command.
    Chairman Waxman. Um-hmm. So you actually received the P-4 
memo a week after it was written, but it was also 3 weeks 
before the memorial service where the family still didn't know. 
Your chain of command, you were the Commander of CENTCOM; you 
had a direct reporting requirement to the Defense Secretary. 
After you read the P-4, who did you contact? Just General 
Myers?
    General Abizaid. I contacted General Myers. And my 
responsibility is to report to the Secretary through the 
chairman. I generally do that. I talked to the Secretary a lot, 
I talked to the chairman a lot during this period. But 90 
percent of what I talked to him about was what was going on in 
Fallujah, what was going on combat operationally throughout the 
theater. And as a matter of fact, when I called the chairman, 
there was a whole list of other things that I believe I talked 
to him about concerning the circumstances in Fallujah in 
particular.
    Chairman Waxman. What did you say to him about this P-4 
memo?
    General Abizaid. I can't remember exactly what I said to 
him. I said it is clear that there is a possibility of 
fratricide involving the Tillman case; that General McChrystal 
has appointed the necessary people to investigate to determine 
precisely what happened; and that while it is likely that there 
is fratricide, we will know for sure after the report is 
finalized, which will reach me when it gets done.
    Chairman Waxman. What did he say to you in response?
    General Abizaid. Like I say, he gave me the impression--I 
can't remember his exact words--that he understood that there 
was an investigation ongoing.
    Chairman Waxman. So he seemed to already know about the 
fact there was an investigation?
    General Abizaid. He seemed to, yes.
    Chairman Waxman. And what about your own reporting 
requirement to the Secretary? Did you ever discuss the 
fratricide investigation with Secretary Rumsfeld or his office?
    General Abizaid. No, I did not talk to the Secretary that I 
can recall directly about it until I was back in D.C. around 
the time period of the 18th through the 20th. And at the time I 
informed him that there was an investigation that was ongoing, 
and it looked like it was friendly fire.
    Chairman Waxman. The P-4 memo said the President should be 
notified that Corporal Tillman was highly possibly killed by 
friendly fire. What steps did you take to make sure the 
President received this information?
    General Abizaid. I notified the chairman. I never called 
the President direct on any operational matter throughout the 
4\1/2\ years of being in the theater.
    Chairman Waxman. OK. Well, General Myers, let's turn to 
you. You were the Chairman of the Joint Chiefs of Staff. Under 
the Goldwater-Nichols Act of 1986, you were the senior ranking 
member of the Armed Forces and the principal military adviser 
to the President and the Secretary of Defense. The P-4 was not 
addressed to you, but General Abizaid just said that he called 
you and told you about the suspected fratricide. First of all, 
is that correct? Did he call you?
    General Myers. I can't recall specifically, but it is 
entirely likely that it is exactly as he recalls it. I would 
trust his judgment in this matter.
    Chairman Waxman. You don't remember what he said or what 
you said back in that conversation?
    General Myers. No. No recall of that.
    General Abizaid. OK. General Abizaid testified, as you 
heard, when he called you, you already knew about it. Is that 
accurate?
    General Myers. Yes. The best I can determine, once I got 
the letter from the committee and talked to some of the folks 
on my staff, is that I knew right at the end of April that 
there was a possibility of fratricide in the Corporal Tillman 
death, and that General McChrystal had started an 
investigation. So when he called, if he called later than that, 
then I would already have known that.
    Chairman Waxman. How would you have known that? Who told 
you?
    General Myers. I can't tell you. I don't know how I knew. 
To the best of my knowledge, I have never seen this P-4. It 
could have come several ways. The most likely is in our 
operations shop, we have folks from Special Forces that--from 
Special Forces that might have known this and passed it to me 
at a staff meeting. I can't tell you who passed it to me. I 
just don't know. Or it could have been I have read General 
Schoomaker's testimony in front of the DOD IG, and he said he 
might have called me. That is another way it could have 
happened. I just can't recall.
    Chairman Waxman. General Myers, you told our staff last 
night that at the time you received the call from General 
Abizaid, it was common knowledge that Corporal Tillman had been 
killed by friendly fire. Is that accurate? Was it common 
knowledge that the fratricide was----
    General Myers. No. If I said that, it was a mistake. I 
don't know that it was common knowledge at that point.
    Chairman Waxman. But you knew about it, and others around 
you knew about it.
    General Myers. Yes, and I told--in working with my former 
public affairs adviser, I said, you know, we need to keep this 
in mind in case we go before the press. We have just got to 
calibrate ourselves. With this investigation ongoing, we want 
to be careful how we portray the situation.
    Chairman Waxman. Yeah. Well, was it fair to say it was 
widely known by people in the DOD?
    General Myers. You know, I can't recall. As General Abizaid 
said when he mentioned this to me, we probably talked about a 
lot of other things, to include the situation in Fallujah, 
which was getting a lot of attention at the moment. But I just 
can't recall.
    Chairman Waxman. OK. Thank you.
    Mr. Davis.
    Mr. Davis of Virginia. General Myers, when you learned that 
this was a possible fratricide, what would Army regulations 
require you to do or the chain of command to do at that point?
    General Myers. I don't come under Army regulations, but--I 
don't think there is any regulation that would require me to do 
anything actually. What I would normally do--it was in Army 
channels. What I would normally do, if I thought the Secretary 
did not know that, I would so inform the Secretary. I cannot 
recall whether or not I did that.
    Mr. Davis of Virginia. We are going to find out in a 
second.
    General Myers. Yeah, well, I think--you can ask the 
Secretary. But I don't recall if I did that.
    Mr. Davis of Virginia. What would Army regulations have 
required at that point?
    General Myers. My understanding is the way the Army 
regulations were written, and this is from research here 
getting ready for the committee, is that they should have 
notified the family at the time that there was a possibility of 
fratricide as soon as they knew it.
    Mr. Davis of Virginia. Nobody at the top was ensuring 
that--really looked at the regulations at that point?
    General Myers. That wouldn't be our responsibility. When I 
learned that General McChrystal had initiated an investigation, 
that was--that was good for me. I know he had worked for me 
before. I knew his integrity. I said, this is good, and they 
are going to do an investigation. We will learn the truth.
    Mr. Davis of Virginia. Mr. Secretary, thank you for being 
with us today. How and when did you learn that Corporal Tillman 
had been killed? There is a button on the base.
    Mr. Rumsfeld. I don't recall precisely how I learned that 
he was killed. It could have been internally, or it could have 
been through the press. It was something that obviously 
received a great deal of attention.
    Mr. Davis of Virginia. Do you remember did you take any 
action at the time that you learned that he was killed? 
Obviously, this was an American hero. This could be highly 
publicized and of great concern to a lot of people.
    Mr. Rumsfeld. The only action I can recall taking was to 
draft a letter to the family.
    Mr. Davis of Virginia. OK. Before he did so, were you aware 
that President Bush was going to reference Corporal Tillman in 
a correspondents' dinner speech on May 1st?
    Mr. Rumsfeld. No.
    Mr. Davis of Virginia. So to your knowledge or 
recollection, you never had any conversations with the 
President or anybody at the White House about that possibility?
    Mr. Rumsfeld. I have no recollection of discussing it with 
the White House until toward the--when it became a matter of 
public record about the fratricide. At that point, and when the 
family was notified, I am sure there were discussions with the 
White House, but prior to that, I don't have a recollection of 
it. Possibly Dick does. Dick Myers and I met with the White 
House frequently, but I don't recall bringing this up.
    Mr. Davis of Virginia. General Myers.
    General Myers. And I don't recall ever having a discussion 
with anybody at the White House about the Tillman case one way 
or another.
    Mr. Davis of Virginia. Mr. Secretary, were you aware in the 
period after Corporal Tillman's death of the extensive media 
coverage being given to this tragic event and Corporal 
Tillman's service as a Ranger?
    Mr. Rumsfeld. I don't understand the question.
    Mr. Davis of Virginia. You were aware of the extensive 
media coverage being given to this event?
    Mr. Rumsfeld. When he was killed, absolutely.
    Mr. Davis of Virginia. Did you instruct your staff at any 
point to try to influence in any way the coverage?
    Mr. Rumsfeld. Absolutely not. Indeed, quite the contrary. 
The Uniform Code of Military Justice and the investigation 
process is such that anyone in the command, chain of command, 
is cautioned to not ask questions, to not inject themselves 
into it, to not do anything privately or publicly that could be 
characterized as command influence which could alter the 
outcome of an investigation. And as a result, the practice of 
most Secretaries of Defense and people in the chain of command 
is to be very cautious and careful about inquiring or seeming 
to have an opinion or putting pressure on anyone who is 
involved in any portion of the military court-martial process 
or the investigation process. And as a result, I have generally 
stayed out over my tenure as Secretary of Defense.
    Mr. Davis of Virginia. Do you remember when you learned 
that this was a possible fratricide?
    Mr. Rumsfeld. Well, I don't remember. And what I have been 
told subsequently is that there was a person in the room when I 
was--who says I was told when he was in the room. And----
    Mr. Davis of Virginia. Do you remember when that was?
    Mr. Rumsfeld. He said that he came back from Iraq on May 
20th, and that, therefore, he assumes I was told on or after 
May 20th. Whether I was told before that, I just don't have any 
recollection. And the best I can do is what I put in my letter 
to the acting Inspector General, which referenced that 
instance.
    Mr. Davis of Virginia. When you learned about this, then, 
for the first time, do you remember did you decide you needed 
to tell somebody else about this to convey this, make sure the 
family was known, the White House or media people? Do you 
remember?
    Mr. Rumsfeld. I don't recall when I was told, and I don't 
recall who told me, but my recollection is that it was at a 
stage when there were investigations underway, in which case I 
would not have told anybody to go do something with respect to 
it. And as Chairman Myers says, this was a matter basically 
that the Army was handling, and it was not something that I 
would inject myself into in the normal course of my role as 
Secretary of Defense.
    Mr. Davis of Virginia. Let me just try to get to that. Your 
letter says that I am told I received word of this development, 
i.e., the possibility of fratricide, after May 20, 2004, 
because that is when this person had returned----
    Mr. Rumsfeld. Right.
    Mr. Davis of Virginia [continuing]. From Iraq.
    Mr. Rumsfeld. That is where that came from.
    Mr. Davis of Virginia. Who was the person? Do you remember?
    Mr. Rumsfeld. I do. His name is Colonel Steve Bucci, and he 
told that to my civilian assistant.
    Mr. Davis of Virginia. And the May 20th date, the 
significance of that is the date he returned from Iraq?
    Mr. Rumsfeld. That is my understanding.
    Mr. Davis of Virginia. So it would have been at that time 
or a subsequent date in all likelihood.
    Mr. Rumsfeld. That is my understanding. That is not to say 
that was the time, because I just simply don't recollect, but 
that is my best information.
    Mr. Davis of Virginia. As it gets refreshed. I understand.
    When did you learn of the P-4 message? This message 
suggested that senior leaders be warned about the friendly fire 
possibility. And when you learned that these instructions had 
been heeded, what was your reaction that there was a P-4 
underway? Do you remember that?
    Mr. Rumsfeld. I don't remember when or from whom I learned 
about the P-4, if at all. I don't recall even seeing it until 
recent weeks in the aftermath of your previous hearings. But so 
I just don't have any recollection of having seen it until more 
recently.
    Mr. Davis of Virginia. On March 6, 2006, you sent a 
snowflake to your deputy, the Secretary of the Army, the Army 
Chief of Staff and others, and in this memorandum you wrote, I 
am not convinced the Army is the right organization to 
undertake the fifth investigation of Pat Tillman's death. 
Please consult with the right folks and come back to me with 
options and a recommendation fast with the right way to 
proceed.
    Why did you believe the Army was not the right organization 
to undertake the investigation which followed General Jones' 
inquiry?
    Mr. Rumsfeld. Well, I don't remember the phraseology of 
that, but my recollection is that I asked the question of the 
deputy, who kind of is very deeply involved in the business of 
the Department, that if there have been several investigations 
by the Army, mightn't it be logical, that if still an 
additional one was necessary, that one ought to consider where 
is the best place to have that investigation conducted? I 
didn't know the answer to the question, but I raised it with 
the deputy, thinking that it is something that ought to be 
addressed.
    Mr. Davis of Virginia. Did you believe the Jones 
investigation was deficient in some way?
    Mr. Rumsfeld. I had no reason to believe that, except that, 
as I recall, we were moving into--the Army was moving into--the 
command, whoever was doing the investigations, were moving into 
the fifth one.
    Mr. Davis of Virginia. So you were looking at fresh eyes, 
basically.
    On March 10, 2006, the DOD Early Bird publication included 
a column from the Arizona Republic which discussed the Tillman 
family's dissatisfaction with the notification process and the 
subsequent investigations. On March 13th, you sent a copy of 
this article, along with a memo, to the Secretary of the Army 
and to Pete Schoomaker, the Army Chief of Staff. In this memo 
you said, I would think you, Pete, would want to call and/or 
write a letter of apology to the family and have it published. 
This situation has been handled very poorly. It is not 
acceptable, and you may want to say that. If you agree, you 
will need to set about fixing the system or process that 
produced this most unfortunate situation.
    Do you remember that?
    Mr. Rumsfeld. I do. I don't have it in front of me, but 
that sounds about right.
    Mr. Davis of Virginia. Do you know if they did as you 
asked?
    Mr. Rumsfeld. I don't. I know that--I have a vague 
recollection that in one instance the Secretary of the Army 
came back to me and indicated something to the effect that he 
agreed generally with my note, but felt that he--they were 
taking the appropriate steps or something. And I just don't 
recall it.
    Mr. Davis of Virginia. On March 13, 2006, 3 days later, the 
DOD Early Bird publication included a column from the Atlanta 
Constitution, which further discussed various complaints about 
the notification process and the subsequent investigation of 
Corporal Tillman's death. Two days later, March 15th, you sent 
a copy of this article, along with another memo, to the 
Secretary of the Army. In this memo you said, here is an 
article on the death of Corporal Tillman. How in the world can 
that be explained? I guess did the Secretary offer any 
explanation on the various foul-ups in this matter to you? And 
what was your reaction at this point to any explanation he 
might have given?
    Mr. Rumsfeld. Well, I can't remember specifically, but as 
you read those things, obviously, I, as Secretary of Defense--
one feels terrible that a situation like that is being handled 
in a way that is unsatisfactory and that additional 
investigations were required. On the other hand, a Secretary of 
Defense has to try to pose it as questions rather than 
assertions, because I didn't--I was not intimately 
knowledgeable of the nature of those investigations. I wasn't 
in a position to give direction without risking command 
influence, in my view. And as a result, I posed these memos to 
these people responsible with questions rather than assertions.
    Mr. Davis of Virginia. Thank you, Mr. Secretary.
    I would just last, seeing where we are today and how this 
was handled, you are Secretary of Defense, how do you feel 
about it?
    Mr. Rumsfeld. Well, I feel, as I indicated in my opening 
remarks, a great deal of heartbreak for the Tillman family, and 
deep concern, and a recognition that the way the matter was 
handled added to their grief. And it is a most unfortunate 
situation that anyone has to agree is something that the 
Department has to find ways to avoid in the future. We owe the 
young men and women who serve our country better than that.
    Mr. Davis of Virginia. You think we certainly owe the 
Tillman family an apology the way this was handled?
    Mr. Rumsfeld. Indeed, as I said in my memo sometime back.
    Mr. Davis of Virginia. Thank you.
    Mr. Rumsfeld. And as I have said publicly here today.
    Mr. Davis of Virginia. Thank you.
    Chairman Waxman. Let me announce to the Members there are 
votes going on, but we are going to continue the hearing. So if 
you wish to respond to the vote and come back, we are going to 
proceed on the line of questioning.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman, and I thank all the 
panelists for your service and for cooperating with the 
committee today.
    I would like to followup on General Myers' testimony, where 
you testified that you learned that Corporal Tillman had been 
killed by friendly fire at the end of April, and that you 
reached out to your public affairs officer to calibrate your 
response in order to be absolutely accurate and precise in your 
response. Yet May 3rd, there was a memorial service held for 
Corporal Tillman, which got a great--he was on the cover of 
Sports Illustrated. It was national news that he had been 
killed in hostile fire. And at this memorial service he 
received the Silver Star, if I recall. And yet the family and 
the world at this point on May 3rd were told that he died with 
hostile fire, when you knew, as head of the Joint Chiefs of 
Staff, that he died with friendly fire, and you knew this for a 
month before, and in your own words you wanted to be precise 
about this information.
    Why did you not come forward and tell the family and tell 
the public the truth? The family was not told the truth until 
the end of May.
    General Myers. Well, first of all, I did not know that 
Corporal Tillman had been killed by friendly fire. I didn't say 
that. What I said was that I was informed that it is possibly 
friendly fire, and that there is an investigation ongoing.
    In terms of notifying the family, that is in Army channels, 
and we have just talked about the regret there is for the fact 
that was not done properly. If it had been done properly, my 
assumption would be they would have known before the memorial 
service. So I did not know it was friendly fire until the 
investigation.
    Like Secretary Rumsfeld, when you are in a senior position, 
you have to be very careful what you say about it. And that is 
why I talked to the public affairs officer. By the way, I 
talked to my former public affairs officer----
    Mrs. Maloney. Yet, General Myers, you knew that he died, 
that there was a possibility that he died by friendly fire. We 
are told all the time in the press possibilities. We are told, 
hopefully, the truth. So at that point you knew then, I assume 
many people knew, that there was a possibility that he died by 
friendly fire, and yet that was not disclosed until a full 
month afterwards.
    The family would have wanted to hear the truth. They 
testified they would have wanted to hear the truth. And if 
there was a possibility, they would have wanted to hear the 
possibilities. And usually in this country what we hear is the 
possibilities, and hopefully the truth coming forward. And yet 
in this, this was not--you sat on your hands and you didn't say 
anything about it. And I find that hard to understand.
    General Myers. Well, as you understand, I think, from the 
materials that have been presented to the committee so far and 
all the testimony, this is the responsibility of the U.S. Army, 
not of the Office of the Chairman. And so I regret that the 
Army did not do their duty here and follow their own policy, 
which we have talked about. But they did not. My assumption 
would have to be--my assumption----
    Mrs. Maloney. General Myers, do you regret your actions 
that you did not reach out--you were the head of the Joint 
Chiefs of Staff. The Army is under you.
    General Myers. That is not entirely correct.
    Mrs. Maloney. Let's get into what is right and fair and not 
the----
    General Myers. What is right and fair is exactly what 
Secretary Rumsfeld talked about. What was right and fair is to 
follow Army policy and notify the family when they think there 
is a possibility.
    Mrs. Maloney. So the family should have been notified that 
there was a possibility.
    General Myers. According to the Army regulations, as I 
understand them, that is correct. By the way, the Marine 
regulations don't. They don't notify until they are for sure is 
my understanding.
    Mrs. Maloney. So the Army did not follow their guidelines 
that they should have told the family and the public that there 
was a possibility that our hero, our football hero and war 
hero, died by friendly fire.
    General Myers. They should have talked about the 
possibility of that as soon as they knew it, according to the 
regulations, absolutely.
    Mrs. Maloney. I would like to ask Secretary Rumsfeld, 
Corporal Tillman was a very, very famous soldier when he 
enlisted. It was very acknowledged by many people. He was a 
professional football player; he was offered millions of 
dollars in a contract that he turned down to serve our country. 
He captured your attention when he enlisted in May 2002, and 
you sent a letter on June 28, 2002, which I would like to make 
part of the record. And in it you write him and you say, I 
heard that you are leaving the National Football League to 
become an Army Ranger. It is a proud and patriotic thing that 
you are doing.
    We also received yesterday----
    Chairman Waxman. Without objection that will be made part 
of the record.
    Mrs. Maloney. Thank you.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Maloney. We also received yesterday a snowflake that 
you sent about Corporal Tillman that is dated June 25, 2002. 
And a snowflake is a name that you give to memos that are sent 
to senior defense officials. And you sent this snowflake to 
Thomas White, then-Secretary of the Army. And the subject line 
is Pat Tillman. And let me read what you said here. ``Here is 
an article on a fellow who is apparently joining the Rangers. 
He sounds like he is world-class. We might want to keep an eye 
on him.''
    May I put this in the record, sir?
    Chairman Waxman. Without objection, that will be ordered.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. The gentlelady's time has expired. Did you 
want to----
    Mrs. Maloney. May I ask for an additional----
    Chairman Waxman. Were you leading to a question?
    Mrs. Maloney. Yes, I was.
    Chairman Waxman. OK. Would you ask it quickly?
    Mrs. Maloney. When Corporal Tillman was killed in 2004, was 
this a blow to you when you heard this news?
    Mr. Rumsfeld. It is. Clearly it is a blow when you read of 
a death of a young man or a young woman who is serving our 
country in uniform and gives their lives. It is always a 
heartbreaking thing for anyone in a position of responsibility 
to read about.
    Mrs. Maloney. That's----
    Chairman Waxman. Thank you, Mrs. Maloney.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    General Myers, just for the record, you are not in the 
chain--you were not in the chain of command as the Chairman of 
the Joint Chiefs; is that correct?
    General Myers. No. The chairman is the principal military 
adviser to the President and the National Security Council, and 
I am not in the operational chain of command, no.
    Mr. Issa. So your influence during your tenure there is 
designed to be to make policy recommendations to the President, 
to the Secretary, that then at their discretion are 
implemented. And as a result, even though you are informed, and 
obviously you have the respect of the men that you have served 
with for so many years, in fact, when we want to look at the 
chain of command, we should not be looking at you as part of 
that except to the extent that you knew about something; is 
that correct?
    General Myers. I think that is substantially correct.
    Mr. Issa. OK. And I am going to--first of all, I am going 
to join with all of you in saying that we regret from the dais 
the heartburn, the heartache and the suffering that the Tillman 
family went through, and that is one of the reasons that 
Government Oversight and Reform has to take a role in seeing 
that this doesn't happen again, if at all possible.
    I also want to make available for the record our 
assessment, which is out of 41 Members on the dais here today, 
there are only 8 who ever served in the military. And all of us 
who served in the military served, as far as I know, at the 
rank of captain or less. So I am not going to claim, as one of 
those, that we are especially knowledgeable of everything that 
could go wrong in every situation. But let's go through a 
couple of things that seem to be left unchanged.
    We understand that a three-star general has lost a star as 
a result not just of ineptness during the process, but of false 
statements. Is that your understanding also?
    Mr. Rumsfeld. No.
    Mr. Issa. That has not happened yet?
    Mr. Rumsfeld. Not to my knowledge. I read the paper this 
morning, and it said the issue as to whether or not he ought to 
keep his third star is something that should be given to a 
review panel, if I am not mistaken.
    Mr. Issa. OK. I think I will join with the recommendation 
that the general's lies--we are not a body in the military who 
accept false statements. Mistakes, yes; false statements, no. 
So I would hope that appropriate action is taken. But as far as 
I can tell, that is the only lie.
    But there is an unresolved issue, and I hope that is the 
focus here today. As I understand it, the Army has a policy 
that during an investigation of a possible fratricide, you do 
inform the family that is a possibility. Is that all of your 
understanding here today for the Army?
    Mr. Rumsfeld. I have no knowledge of what that Army reg 
says.
    General Brown. It is my understanding and I think the 
policy is no later than 30 days from the time that the 
investigation--that there is an investigation, you must 
immediately notify the family, but in no cases later than 30 
days. I think that is a regulation that came into effect about 
2003. And I don't know what the regulation was before 2003.
    Mr. Issa. Army regulation 600-8-1 will be placed in the 
record without objection.
    Chairman Waxman. Without objection, that will be the order.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Issa. It is also my understanding as someone who has 
44,000 Marines, some of them on their fourth deployment in 
Afghanistan and Iraq at Camp Pendleton, that the Marines have 
the opposite policy, that in fact if Corporal Tillman had been 
a Marine the policy is not to inform until the completion of 
the investigation period. Is that also on your understanding to 
the extent that you know?
    General Abizaid. Yes, that is the Marine policy as I 
understand it.
    Mr. Issa. Then I certainly think from the dais here today 
we would hope, General Brown, to the extent that you convey it 
and for those behind you taking notes that we can't have two 
policies. There has to be one policy because it is the only way 
that in a joint world that we're going to have the kind of 
joint understanding of what to do. And Secretary Rumsfeld, you 
are one of the big cheerleaders and author of jointness. 
Wouldn't you agree that we have to, much as possible, not have 
two standards when people are fighting side by side?
    Mr. Rumsfeld. Congressman, we have different policies in 
the respective services on literally dozens and dozens of 
things.
    Mr. Issa. I know, Secretary Rumsfeld.
    Mr. Rumsfeld. You know that.
    Mr. Issa. I know, but the question here because we have 
this O&R oversight we want to know why a legitimate hero who 
died a hero, whose Silver Star should say he stood up to 
protect his men while they were under friendly fire because he 
tried to stop that firing from killing the rest of his unit, 
every bit as deserving of that or even greater award, why that 
wasn't correct. That is the oversight. We can't change that. 
Others will have to.
    But on the reform side--and I will ask indulgences for a 
moment since we are a little short anyway--isn't it appropriate 
that today we consider or ask the DOD to consider as much as 
possible unifying those things? And General Brown, I will ask 
it to you because you are the only one still on active duty. As 
a supreme commander, as a combatant, as whatever role you are 
in the future when you have multiple different forces, wouldn't 
it be extremely desirable for the Department of Defense to 
undertake unifying these standards to prevent the kind of 
misunderstanding that clearly Colonel Nixon and others had in 
this process.
    General Brown. Absolutely, and I will be glad to take that 
back to the Department of Defense and ask them to take a look 
at that.
    Mr. Issa. Thank you.
    Chairman Waxman. Thank you, Mr. Issa.
    Mr. Cummings.
    Mr. Cummings. Thank you very much. Secretary Rumsfeld, I 
want to ask how is it possible that you didn't know before May 
20th that Corporal Tillman died by friendly fire? And I will 
ask you--we developed a chart which I will put up now on the 
wall. In this chart, we show what the committee had learned up 
to that point, which was that at least nine Pentagon officials, 
including three generals, either knew or were informed of the 
suspected fratricide in the first 72 hours after it occurred. 
We have continued to investigate.
    And now I would like to put up another chart. Here we 
identify Pentagon officials who knew of the fratricide before 
the American public and the Tillman family at the end of May 
2004.
    This chart shows that at least 30 people knew, including 
some of the highest ranking military officials in our 
government. Even this is not comprehensive. The committee 
interviewed Lieutenant General John Craddock on July 27th. In 
2004 he was your Senior Military Assistant. He is now the head 
of NATO. He told us that he didn't learn of the fratricide in 
any official capacity but rather from his neighbor, General Jim 
Lovelace, who was the Director of the Army Staff. This is how 
General Craddock described it and we will put that on the 
board. He said, Jim Lovelace is my neighbor at Fort Myer. 
Because he was my neighbor, in a social setting we had, I would 
say frequent, when a couple of times a month we talked to each 
other outside or something on the weekend. The best that I can 
recollect was over the fence at my quarters 1 weekend Jim 
Lovelace said something to me that Tillman may have been killed 
by friendly fire. I recall being surprised and taken aback 
quite frankly.
    If this was common knowledge among the top military ranks, 
Secretary Rumsfeld, something that was talked about across the 
backyard fences, how is it possible that you did not know?
    Mr. Rumsfeld. You have a date, Congressman, on when this 
backyard fence discussion took place?
    Mr. Cummings. No, he didn't give us a specific date, Mr. 
Secretary.
    Mr. Rumsfeld. You're talking about an institution of 
something like 3 million people. Active duty, reserve, guard, 
civilians, contractors. There are so many things going on in 
that Department in any given year, there is something like 
7,000 courts martial with probably that many investigations 
going on at any year.
    It isn't possible--it is like a city of 3 million people, 
it is not possible for someone to know all the things that are 
going on.
    Mr. Cummings. I understand, Mr. Secretary. Believe me, I 
would not be asking you these questions if it were not for the 
fact that we had a hero here, one that you were well aware of, 
and so I thought maybe you might have knowledge of it.
    I don't want my time to run out because I have a rather 
more pointed question that I want to get to. In our hearing in 
April, Pat Tillman's mother, Mary Tillman, and this is one of 
the most wrenching hearings I have attended in 11 years, was 
asked about the possibility that you didn't know and this was 
her response. And I want you to listen to it. This is from a 
mother whose son had been killed in war. She said, I've been 
doing a lot of reading about former Secretary of Defense 
Rumsfeld. And I believe just from what I learned about him as a 
person, and his expectations for his staff, that he would have 
had this information.
    I think what Mary Tillman said capsulates what many 
Americans feel. It does not seem credible that you didn't know 
this information. But let me go back to what you said in your 
opening statement. And I was so impressed with the statement 
that you said--that you put out. You said this and you wrote 
it. It says, when you talk about what you expected of the 
military, you said: DOD officials must tell the truth and must 
be believed to be telling the truth or our important work is 
undermined. And then you said something that was very 
interesting. You went on to say in the closing remarks: Any 
errors in such a situation are most unfortunate. The Tillmans 
were owed the truth, delivered in a forthright and a timely 
manner.
    And then General Geren yesterday said that he didn't 
believe that there was a cover-up. I ask you, sir, most 
respectfully, do you think that the Tillmans received the 
truth? And I ask all of you, do you think there was a cover-up 
by DOD?
    Mr. Rumsfeld. Let me respond this way. First, the words--I 
read the testimony of your previous hearing. I agree with you 
that they are--it was a heartwrenching hearing. And the words 
that you cited from his mother obviously were the words of a 
grieving mother. And as I recall the testimony, she did go on 
to say that she has no facts nor paper, no information to 
confirm her belief, which I thought was gracious of her, 
because I know of no facts to confirm her belief. And I know of 
no one else who has any facts or paper to confirm her belief.
    Mr. Cummings. Sir, are you claiming there was an error? You 
mentioned error, error. Is there a difference between a lie and 
an error, Mr. Secretary?
    Mr. Rumsfeld. Well, certainly there is a difference between 
the two. And I don't know how many investigations--some people 
have said five, some six, some seven--but every single one of 
them has suggested that was badly handled and errors were made. 
But in no instance has any evidence of a cover-up, to use the 
phrase you use, been presented or put forward. I know of 
nothing that suggests that.
    I know that I would not engage in a cover-up. I know that 
no one in the White House suggested such a thing to me. I know 
that the gentlemen sitting next to me are men of enormous 
integrity and would not participate in something like that. So 
of course there is a difference between error and cover-up.
    Chairman Waxman. Mr. Cummings, your time is up but you did 
ask a question that you wanted all of the witnesses to answer. 
And I guess the question would be since the information was 
distorted and O'Neal's--Staff Sergeant O'Neal's statement was 
rewritten to give a different statement than what he put 
forward, and the family wasn't informed for the longest time, 
and all these other problems, do any of you think there was a 
cover-up of the errors or actions below?
    General Myers. Mr. Chairman, I can only say that in the 
places that I worked, I would agree totally with Secretary 
Rumsfeld that whether it was the White House or in the 
Secretary's office or when the Joint Chiefs of Staff met or 
when I talked to General Abizaid, there was no--never any 
attempt to cover up anything. In fact this was not an issue 
that we discussed. I just didn't discuss this issue. We had a 
lot of issues. We mourn every death. We really do. We cry with 
the parents and the friends and family.
    Chairman Waxman. I guess the question is different. I am 
not asking you whether you were a part of a cover-up. Do you 
think there was a cover-up?
    General Myers. I have no way of knowing. I don't have all 
the information.
    Chairman Waxman. General Abizaid, do you have any comments?
    General Abizaid. No, sir, I don't think there was a cover-
up. I think people tried to do the right thing and the right 
thing didn't happen.
    General Brown. I agree with General Abizaid, I don't think 
there was a cover-up.
    Chairman Waxman. OK. Thank you. Mr. Mica has arrived. So we 
will recognize you now.
    Mr. Mica. Thank you. Is that another vote? In any event, 
thank you for yielding to me. Welcome, Mr. Secretary, and the 
generals.
    I didn't get a chance to make an opening statement but just 
a couple of comments and a quick question or two. First, 
welcome back, Secretary Rumsfeld. I have been around this place 
since 1970. My first boss was Congressman Cramer from Florida 
who passed away some time ago. But I've never seen more 
dedicated public servants--dedicated servant or service to this 
country than Donald Rumsfeld has provided.
    I think on my dying day I will remember September 11th when 
I was with Donald Rumsfeld in the Pentagon for breakfast that 
morning. He invited me and half a dozen Members, I think, over 
to the Pentagon. And the subject of the conversation Donald 
Rumsfeld was interested in was the military had been downsized 
during the nineties since the fall of the Berlin Wall, and what 
we were going to do about a situation if we had another--the 
word used was ``incident.'' I remember in the conversation 
sitting in the room right off of his office for coffee that 
morning, and he was trying to make certain that we were 
prepared for something that we might not expect.
    I was with Pete Geren, too, who is now the Secretary of the 
Army and Pete has done an excellent job. He did an excellent 
job for you then and he has done an excellent job for you too. 
I can't remember if he was a Democrat or a Republican. I think 
he was a Democrat that you enlisted as an aide, well respected 
by everyone on both sides of the aisle.
    There is a hero sitting right there, because that morning I 
left just a few minutes--we learned together of the attack on 
the World Trade Center. And this Secretary rolled up his 
sleeves and went down to save people who had been victimized by 
the terrorist attack on the Pentagon. I just made it back here 
as the plane hit. I will never forget that morning or your 
service to our Nation.
    The purpose of this is, you know we do have a 
responsibility to look into this, just as you do. But from the 
information you provided, I don't see a cover-up. I see--and 
they are looking for the higher level, I mean they are trying 
to get the trail to the generals and to the Secretary and the 
White House if they can.
    Let me read from this comment Pete Geren said: We have made 
a number of mistakes. In fact, I cannot imagine the situation 
could have been more poorly handled. And he does go on and tell 
how I believe this is appropriately handled and those who made 
errors were held accountable. 99.9 percent of the military do 
an outstanding job. And I thank you for setting an example. 
These folks were held accountable; is that correct, General 
Myers, all generals?
    General Myers. From what I understand, that's correct.
    Mr. Mica. Pete Geren said here: But at no time did the Army 
try to cover up the truth or deceive the American public about 
how Colonel Tillman died. Would you say that is correct Mr. 
Secretary?
    Mr. Rumsfeld. Congressman, thank you very much for your 
comments. As you, I have a lot of respect for Pete Geren. And I 
have every reason to believe that his investigation was 
thorough and proper and that his remarks are correct. I was not 
involved. I'm out of the Department now for many, many months, 
and I have not reviewed the investigation by General Wallace 
and therefore I can't comment.
    Mr. Mica. OK. Also in this memo from Pete Geren it says, 
it's important to note that consistent with the DOD's Inspector 
General's report, General Wallace found no evidence that anyone 
in the chain of command sought to cover up the fact that 
Corporal Tillman died by friendly fire. General Myers, any of 
the generals know anything other than this?
    General Myers. I know nothing other than that. I have not 
seen the Secretary's statement, but it is consistent with other 
things I have seen.
    Mr. Mica. OK. And when we held the last hearing on this, of 
course our hearts go out to the Tillman family. The loss of 
anyone--any life is a tragedy. But I remembered at the hearing 
when we first held this it was at the time of the Corzine 
accident in New Jersey and the first media accounts came out 
that somebody had cutoff the driver and some bad driver had 
caused the accident. And then we found out through some 
investigation that they were actually going 90 miles an hour 
and the Governor didn't have a seat belt on.
    Here is an incident that happened halfway around the world, 
and in a combat situation and sometimes it is difficult to get 
those reports and the information back. Is that not correct, 
General? General Myers.
    General Myers. I think that's absolutely correct. And you 
know, around the Department of Defense we usually say the first 
reports, just like aircraft accidents, other mishaps, are 
probably wrong and we generally don't react to first reports. 
We wait for other data.
    Chairman Waxman. Thank you, Mr. Mica.
    Mr. Mica. May the other gentlemen respond.
    General Abizaid. I would just say that reports initially of 
a combat action always have some inaccuracies of some sort and 
we always say the first report is always wrong. But I think 
again we tried to clarify this as quickly as we could, and 
that's where the difficulties took place.
    Mr. Mica. Thank you.
    Chairman Waxman. Anybody else want to respond? If not, Mr. 
Tierney is recognized.
    Mr. Tierney. Thank you very much. If we direct our 
attention back to the P-4, the P-4 memo that General McChrystal 
sent out, you said he had become aware, ``of suspected reports 
that POTUS, the President of the United States, and the 
Secretary of the Army might include comments about Corporal 
Tillman's heroism and his approved Silver Star medal in 
speeches currently being prepared, not knowing the specifics 
surrounding his death.'' So obviously the objective of that P-4 
was to get those specifics, the fact that there was a 
fratricidal investigation going on, to the appropriate people 
to the White House.
    General Abizaid, you were the primary addressee on the 
memo, and I think it was not uncommon for the President to 
direct conversations with the combatant commander such as 
yourself. Did you take any steps to alert the White House that 
Corporal Tillman's death was suspected as friendly fire?
    General Abizaid. No, sir. I talked directly to the 
chairman.
    Mr. Tierney. Having that direct relationship with the 
President and knowing that it was specifically put in the P-4, 
that in fact there was a concern that the President might make 
a statement about the conditions surrounding that event, why 
didn't you take it up yourself to make sure that the White 
House was informed?
    General Abizaid. I did not take it upon myself to inform 
the White House directly nor did I ever when I was in command. 
When something would come up in our normal meetings with the 
President, I would have a free flowing conversation, but I 
usually commented through the chairman or directly with the 
Secretary.
    Mr. Tierney. And that's the case even when there is some 
immediacy in the memo indicating that the President might be in 
the position to make an embarrassing statement unless he was 
warned otherwise?
    General Abizaid. First of all, I received the message late, 
which is clearly a problem within my own headquarters. When I 
received the message late, I talked to the chairman. I also saw 
the two other addressees, General Brown and the Army, and after 
having talked to the chairman, it became clear to me that the 
chairman knew about it and I presumed that the information 
flowed in Washington through Army channels as I might have 
expected. Those assumptions were obviously incorrect.
    Mr. Tierney. General Brown, what about you? Did you notify 
the White House about the possibility that Corporal Tillman was 
killed by his own unit after you saw that memo?
    General Brown. No, sir. I didn't.
    Mr. Tierney. And why didn't you do that knowing that there 
was some immediacy to the memo?
    General Brown. Well, sir, first of all on the P-4, I was an 
info addressee, which is not the primary addressee.
    Mr. Tierney. If I could interrupt, I understand. But 
General Abizaid said the reason that he didn't do it was 
because you were on the memo. So he must have expected that you 
would do something. That was ill placed?
    General Brown. No, I don't think anybody would expect me to 
call the President of the United States based on the comment 
made on an info message where I was an info addressee.
    Mr. Tierney. General Myers, at that time you were the 
Chairman of the Joint Chiefs of Staff. You were the principal 
military adviser to the President and the National Security 
Council, the Secretary of Defense. Did you advise the President 
or anyone at the White House that there was a fratricide 
investigation?
    General Myers. Bear in mind again I had not seen the P-4. 
All I knew was that there was potential for fratricide, there 
was an investigation ongoing. I do not recall and am fully 
certain I didn't talk to anyone at the White House about that.
    Mr. Tierney. Did anybody at your staff talk to anybody at 
the White House?
    General Myers. I can't tell you that. There are some 
things, by the way, that circulate in public affairs channels 
that could be like that. But I wasn't aware of that.
    Mr. Tierney. Who on your staff would have been in that 
loop, the public affairs loop?
    General Myers. My public affairs officer was then Captain 
Frank Thorpe, and I do remember talking to him about the 
potential of fratricide and saying we have to be cautious here; 
if we make any comments, we have to bear that in mind.
    Mr. Tierney. And who would that person's contact at the 
White House be?
    General Myers. I don't know. Routinely he would never talk 
to the White House. They would talk to the services' public 
affairs officers. He would also talk to the Office of Secretary 
of Defense's public affairs folks. But I can't imagine him ever 
talking to the White House, unless it was on a conference call 
where he was included.
    Mr. Tierney. Secretary Rumsfeld, let me ask you the same 
question to close things out. Did you advise the President or 
anyone at the White House that there was evidence that Corporal 
Tillman was killed by friendly fire at any time?
    Mr. Rumsfeld. I don't recall. Clearly it would be logical 
that I would have or someone in my office would have after the 
information became readily available and the family was 
notified and it became a subject of interest. Then one would 
want to know--make sure that the White House was aware of it 
and there were daily calls back and forth between the National 
Security Council and the office.
    Mr. Tierney. General Myers indicated at one point there was 
fairly common knowledge around this. Who in your office or the 
Secretary's office would have had the kind of contact with the 
National Security Council staff or the White House on a subject 
like that?
    Mr. Rumsfeld. There are multiple contacts each day and they 
would happen throughout military assistants, they would happen 
through the civilian assistants, they would happen through the 
public affairs. General Myers and I would meet with the 
President at least once a week.
    Mr. Tierney. Setting aside----
    Mr. Rumsfeld. Just a second, please, and let me just 
complete the thought. And in addition, we were in National 
Security Council meetings and principal committees meetings on 
a regular basis during the week. Probably five times a week.
    Mr. Tierney. You are telling me that neither you or General 
Myers have any recollection of either of you gentlemen telling 
anybody, so who on your staff--who would you suggest on your 
staff that we could talk to that might have had conversations 
with the White House on that?
    Mr. Rumsfeld. I just don't know other than my response to 
you as to the kind of contacts that took place on a regular 
basis.
    General Myers. I would agree. I wouldn't know who to say.
    Mr. Tierney. You don't know who made those contacts on a 
regular basis?
    General Myers. There were multiple people depending on the 
subject. But on this subject, I wouldn't know of anybody.
    Chairman Waxman. Mr. Tierney, your time has expired. Mr. 
Platts.
    Mr. Platts. Thank you, Mr. Chairman. I appreciate you 
holding this hearing as we continue to address this very 
important matter. And I know that all of us here, both our 
witnesses, those in the audience and committee and staff, 
continue to have the Tillman family and all the families of our 
courageous men and women who have given their lives in defense 
of our country in our prayers. And I know certainly with the 
four of our witnesses, given your distinguished careers and 
patriotic service to our Nation, that you all share in the 
regret that we all feel in how the Tillman family learned of 
the true manner in which their loved one gave his life. And I 
certainly appreciate your volunteering to be here today so that 
we can get to the bottom of this.
    I want to followup, I know my colleague Mr. Issa of 
California asked the question about uniformity and, General 
Brown, you stated that you would take that recommendation back. 
I want to add my support for the services coming together as 
one who has followed up with 17 families in my district, either 
whose loved ones gave their lives in Iraq, Afghanistan, off the 
coast of Djibouti, and knowing how those families want as much 
information as possible and have followed up with me, and we 
worked with the various military branches.
    Sometimes it is difficult as a Member in working with 
families because of the variances in the branches, in how we 
get noticed and when we get noticed and how we can then help 
the families. I want to echo Mr. Issa's suggestion that this be 
pursued. And in addition, General Brown, you doing it within 
the ranks of Secretary Rumsfeld and General Myers and General 
Abizaid, given your historic and great service and your 
knowledge of the importance of these issues, would encourage 
you to even on the civilian side to join in in helping to push 
that issue forward for uniformity within the branches.
    Secretary Rumsfeld, I want to followup a question that 
Ranking Member Davis asked. A memo of March 2006 where you, in 
communicating to the Secretary of the Army and the Chief of 
Staff of the Army, of the unacceptable nature of how things 
played out and that they need to address it. As we are here 
today--because I think the reminder that we're Oversight and 
Government Reform and to me what I hope we get out of today is 
how to make sure this never happens again--is with, Secretary 
Rumsfeld, you or other witnesses, your knowledge of what 
changes have been made to ensure this does not repeat itself.
    Mr. Rumsfeld. Well, I very briefly, I am sure there have 
been a great many changes made that I am not aware of. But in 
the aftermath of the early investigations, I am told that the 
Army instituted a number of changes and adjustments in how they 
handled things and that those have been reported to the 
committee and the Congress.
    Mr. Platts. General Brown, could you comment on that?
    General Brown. Well, I think the big--I think Secretary of 
the Army Geren said yesterday the changes are important, but 
you have to execute the changes and execute the process the way 
it is designed if you are going to change the process.
    And the fact that the Army regulation we talked about 
earlier, 600-8 I think it is, that requires the family to be 
notified and I think in that regulation it also says to keep 
them constantly updated and no later than 30 days, I think that 
regulation is the answer to a lot of these problems, having 
been through fratricide problems before in my career; that 
proper execution of that process will help us not to have these 
kind of problems in the future.
    While I'm on it, I would also totally agree with you. I 
think the way that is written today sounds to me, and I am not 
familiar at all with the Marines' policy or Air Force policy or 
any of those, but it sounds to me like the right policy or the 
right regulation for all the services.
    So I think you can--they have made changes, I think, but 
you have to execute the changes the way they are designed if 
you want to solve, fix this very difficult process.
    Mr. Platts. General Abizaid.
    General Abizaid. Congressman, if I may, we found out a lot 
of things in the course of this conflict about systems that we 
have in place that really don't make sense for the modern 
world. In the world of e-mail and in the world of 
telecommunication, phones with the soldiers in the field, 
cameras, etc., that it is almost impossible to stop the flow of 
information from the field.
    I can remember when my daughter was informed about her 
husband's being wounded it came not from the Department of the 
Army initially, but from an e-mail that came from somebody in 
the field. Not only was it incorrect in the way that was 
initially conveyed to her but it had some other bad information 
in there.
    Nevertheless, what we have to do is figure out how to deal 
with these communications means that are ubiquitous in the 
field and figure out how we are going to deal with them when 
these bad things happen which will continue to happen.
    Mr. Platts. Thank you, General Abizaid. My time has 
expired. My sincere thanks for each of you being here and my 
thanks for your service to the Nation.
    Chairman Waxman. Thank you very much, Mr. Platts. Ms. 
Watson.
    Ms. Watson. I want to address my questions to Secretary 
Rumsfeld. On July 26, 2007, you wrote a letter to the committee 
which I'd like to make part of the record. And in that letter 
you made the following statement: The Tillmans were owed the 
truth, unvarnished and delivered in a forthright manner, and 
the Department owed it to the memory of a man who sacrificed 
his life, gave up a very lucrative career, to serve his 
country.
    And I certainly could not agree more. And in fact I believe 
it is the standard that everyone in the Department should be 
held to--everyone, including yourself. But my question is 
whether or not you met this standard. We sent you a list of six 
questions and you did not address those questions. And within 
your letter you said I don't recall and I've not been here the 
full time, but quite frequently you have said I don't recall.
    Now I have a document here that the IG sent, and there is a 
copy of it probably up on the marquees for all of you to see. 
And it is a memo, six pages, with over two dozen specific 
investigative questions, many with subparts, about your 
involvement in handling the case. Do you remember the Inspector 
General's questions? Do you remember this document that was 
sent to you?
    Mr. Rumsfeld. I do.
    Ms. Watson. OK. And I won't read all of them. But here is 
one particular one. When you were told friendly fire----
    Mr. Rumsfeld. What number is that?
    Ms. Watson. Let's see, I am just going to read it to you. 
They are listed here, and there is a number. Let's see if I can 
find the one I am reading. Let me read it to you.
    When you were told friendly fire was suspected, did you 
know the family was told that enemy fire caused Corporal 
Tillman's death?
    Mr. Rumsfeld. I'm sorry, could you repeat that? Your voice 
dropped and I missed a word or two.
    Ms. Watson. Sorry, I'm a little ways from the mic. When you 
were told friendly fire was suspected, did you know the family 
was told that enemy fire caused Corporal Tillman's death and 
the family was not to be informed the death was under 
investigation? Do you recall that?
    Mr. Rumsfeld. No, I did not know that the family--I did not 
know what you just said.
    Ms. Watson. OK. You did not know that the family--I just 
want to get it for the record. You did not know that the family 
was told that enemy fire caused Corporal Tillman's death and 
the family was not to be informed that death was under 
investigation? You did not know that?
    Mr. Rumsfeld. I have no recollection that anyone ever said 
to me that the family should not be told the truth or that it 
was possibly friendly fire or friendly fire. I have no 
recollection of anyone suggesting that.
    Ms. Watson. You were unaware the family was told that it 
was enemy fire that caused Corporal Tillman's death?
    Mr. Rumsfeld. I think everyone was told that.
    Ms. Watson. No, did you?
    Mr. Rumsfeld. I was aware from the press and I knew nothing 
other than in those early days, April 22nd, when he was killed. 
I did not have knowledge other than what was in the press that 
he was killed by enemy fire.
    The information that it first was a possibility of 
fratricide came later and in no instance was I told that people 
had the belief that it might have been fratricide and that no 
one should tell the family that. I had no knowledge of that, 
which I believe was your question.
    Ms. Watson. OK. I'm just giving you an example of what was 
asked of you and my question is whether you remember these 
questions.
    Mr. Rumsfeld. I've got them in front of me.
    Ms. Watson. Do you remember them?
    Mr. Rumsfeld. I remember--I do not remember them from the 
time they apparently were originally provided. But I do--have 
seen them, I've read them and I believe I have answered all of 
those that I am able to answer.
    Chairman Waxman. Thank you, Mrs. Watson, your time is up.
    Ms. Watson. Maybe he can answer--I just wanted to mention 
this so maybe he can respond while he is answering some other 
questions.
    Mr. Rumsfeld. Mr. Chairman, could I make a comment on a 
couple of things that have gone prior to this? One is there 
were a couple of charts shown up there. I couldn't read any of 
it and I don't want to have anyone to believe that I could read 
those two charts that were put up.
    Second, the Congressman asked the chairman if he was in the 
chain of command and of course he answered he was not. I would 
not want that to leave anyone with the question that he did not 
have the same standard of care with respect to his public or 
private utterances with respect to the risk of command 
influence. Because in his position as chairman, clearly he had 
to exercise the same degree of care that I did with respect to 
that issue.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Waxman. Thank you very much.
    Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here. I appreciate deeply your service. Just to kind 
of fill in the blank a little bit for some who may not be aware 
of the military parlance. Let me start with General Abizaid. 
General Abizaid, what is a P-4? What exactly does that 
designate?
    General Abizaid. A ``personal for'' communication is 
usually a direct command communication from one commander to 
another or to a series of commanders designed to pass 
information that is considered very, very important.
    Mr. McHugh. And this P-4----
    General Myers. If I can, Mr. McHugh, it is also my 
understanding of the P-4 as well is that it is supposed to be 
pretty closely held. It is personal for the addressees to and 
the info columns.
    Mr. McHugh. An e-mail for eyes only?
    General Myers. Pretty much. It's not supposed to get wide 
distribution.
    Mr. McHugh. This particular e-mail, this particular P-4 was 
addressed to whom now? General Abizaid, General Brown?
    General Abizaid. It was addressed to me and it was 
addressed personal for U.S. Commander CENTCOM, commander U.S. 
SOCOM, commander USASOC.
    Mr. McHugh. Secretary Rumsfeld, would it be the normal 
course of business in the Pentagon for the Secretary of Defense 
to review or have synopses of or be informed of on a routine 
basis P-4s at combatant command level?
    Mr. Rumsfeld. I don't recall in 6 years every seeing one 
until this hearing--prior to this hearing. It may be that I 
have, but I just don't recall them. And there is certainly no 
one who reaches in and grabs communications that are addressed 
to other people and then gives me a synopsis of them. It just 
doesn't happen that way.
    Mr. McHugh. So it would not? I heard Secretary Rumsfeld--
and if others have responded, I apologize, this vote schedule 
has been an inconvenience to our guests, certainly, but to 
Members as well. I heard Secretary Rumsfeld say that at no time 
does he recall having a conversation early in the process about 
the fratricide involved with--in the Tillman case, but I didn't 
hear the same question directed to General Myers.
    General, did you ever have a discussion with the White 
House, with the President prior to the final determination as 
to this case?
    General Myers. I cannot recall any time that I had a 
conversation with the White House with anybody.
    Mr. McHugh. Speechwriters included?
    General Myers. Speechwriters included, about this case one 
way or the other.
    Mr. McHugh. General Abizaid, you were a frequent visitor to 
the Hill, we were always bringing you back here time and time 
again. I suspect while you were under command performance at 
Capitol Hill you perhaps stopped by and had a chat at the White 
House. Do you recall addressing this case with the President or 
any of his key operatives?
    General Abizaid. I didn't expect once I retired I would 
continue this, but so it is. I was in Washington from the 18th 
to the 20th and I talked with the Secretary during that period, 
and I believe during that period I discussed with him the 
fratricide investigation.
    Mr. McHugh. The Secretary of Defense?
    General Abizaid. Right. I don't recall mentioning it to the 
President except perhaps after the period where I signed off on 
the report that said it was absolutely friendly fire. Once we 
confirmed the friendly fire, which was on the 28th.
    Mr. McHugh. Have you had a chance to review General 
Wallace's report?
    General Abizaid. I have not seen General Wallace's report.
    Mr. McHugh. General Brown, I see you shaking your head.
    General Brown. No, sir.
    Mr. McHugh. General Myers, have you?
    General Myers. No, sir, I haven't.
    Mr. McHugh. This is perhaps in that context not the fairest 
question I might ask, but I'm going to ask it anyway. Welcome 
to Congress. Based on what you heard about it, do you have any 
exceptions, objections, comments, anything that you find 
remarkable about it or just merit having it entered upon this 
record? Let's go from the right to the left, no political 
indication intended.
    General Brown. Is the question--I'm not sure I understand 
the question. I haven't seen----
    Mr. McHugh. You haven't seen it, but you have heard about 
it. Based on what you have heard would you like to make any 
comments?
    General Brown. No, I don't think I would like to make any 
comments.
    Mr. McHugh. It is not the fairest question without having 
had it before you. General Abizaid.
    General Abizaid. No, sir, I don't have any comments on it.
    Mr. McHugh. General Myers.
    General Myers. No, sir, I don't have any comments on it. 
Back to my previous statement on the White House. It would have 
been logical in our many meetings with the White House for the 
President or the Secretary or I to regret the Tillman death, 
because it was widely known. But it would have been a 5 or 10-
second affair. And I don't recall that, but it would have been 
logical that we would have done something like that.
    Mr. McHugh. But not about the questions was this a friendly 
fire or other kind of death?
    General Myers. I don't recall that we ever talked about 
that.
    Mr. McHugh. I see my time is up. Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. McHugh.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman. Corporal Pat Tillman 
committed to serve his country, not to serving as a symbol for 
promoting President Bush's war. Corporal Tillman's mother, 
Mary, believes that this has been a complete donkey show and I 
certainly agree with her assessment.
    The Tillman family gave the ultimate sacrifice for their 
country and they deserve to know the full truth behind Corporal 
Tillman's death.
    Let me ask the entire panel, on April 30, 2004, the Army 
Special Operations Command announced that Corporal Tillman has 
been posthumously awarded the Silver Star. The award of a 
Silver Star was a major development. It was rushed through so 
it would be ready in time for the memorial service for Corporal 
Tillman on May 3, 2004, which was widely covered by the press.
    According to Pentagon regulations, the Silver Star is to be 
awarded for gallantry in action against an enemy of the United 
States. And before I turn to the specifics of the award, can 
anyone on the panel tell me who officially awarded the Silver 
Star to Corporal Tillman? Can anyone answer that? Mr. 
Secretary?
    Mr. Rumsfeld. I have no idea who the individual was who 
actually awarded the Silver Star. I do know that the process 
does not include the Secretary of Defense at all. It is signed 
off on only by the Secretary of the Army and the recommendation 
comes up from the command to the Secretary of the Army and the 
Secretary of the Army signs the certificate. Who was physically 
present to present that to the extent it was presented 
posthumously, I don't know. But I wasn't involved in the Silver 
Star at all.
    Mr. Clay. General Myers, would you know?
    General Myers. My understanding was it came up from the 
Department of the Army channels and was approved by the 
Secretary or the Acting Secretary at the time. In my prep for 
this I was told that there was a board that usually meets on 
those high level awards to approve the award. The chairman's 
office was not involved in this award in any way. It was an 
Army matter.
    Mr. Clay. General.
    General Abizaid. Sir, the awards go through service 
channels, not through joint channels.
    General Brown. Sir, I agree with everything they said, but 
I do not know who awarded the Silver Star at the memorial 
service.
    Mr. Clay. The answer is President Bush. And let me put up a 
copy of the Silver Star citation. As you can see, it says the 
President of the United States of America has awarded the 
Silver Star to Corporal Patrick Tillman. So this is important. 
I know the President didn't actually review the supporting 
documentation for this award, but this award was given in the 
President's name. And that authority should be exercised only 
with the utmost care. But that didn't happen. Instead the 
Silver Star citation was false.
    And here is what it says: Corporal Tillman put himself in 
the line of devastating enemy fire as he maneuvered his fire 
team to a covered position from which they could effectively 
employ their weapons at known enemy positions.
    In his March 26, 2007, report, the Defense Department 
Inspector General concluded that the Silver Star citation and 
supporting documents had materially inaccurate statements and 
erroneously implied that Corporal Tillman died by enemy fire. 
Everyone on this panel learned before the Tillman family and 
the American public that Corporal Tillman was likely killed by 
his own unit.
    Can each of you please explain why you did not intervene to 
correct the record? I guess we will start with you, Mr. 
Secretary.
    Mr. Rumsfeld. As I said, the Office of the Secretary of 
Defense is not involved in the Silver Star award at all. I was 
not knowledgeable about it, did not sign off on it, did not 
know of the language at all.
    Mr. Clay. Do you think he should have been awarded it?
    Mr. Rumsfeld. I think from what I understand, the language 
of the award is to be reviewed or has been reviewed in view of 
the facts that are subsequently available.
    Mr. Clay. Thank you. General Myers.
    General Myers. My response is essentially like Secretary 
Rumsfeld's. The chairman's office, the Joint Staff is not 
involved in these awards. This is an Army responsibility. And 
like the Secretary, I understand that the wording is being 
looked at and I also understand--and I can't tell you where I 
heard this--it may have been in the prep--that General 
McChrystal thought the actions were heroic whether or not they 
came from enemy fire or friendly fire. That was his 
determination.
    Mr. Clay. Thank you. General.
    General Abizaid. Sir, in General McChrystal's personal 
forward he said the potential that he might have been killed by 
friendly fire in no way detracts from his witnessed heroism or 
the recommended personal decoration for valor in the face of 
the enemy. I believe that the Army has looked at the award on 
several different occasions. They have upheld it on every 
occasion. Whether or not the wording was correct or not in the 
initial stage, I do believe that the Corporal Tillman deserved 
the award that he received.
    Mr. Clay. Thank you for your response. General, please?
    General Brown. Sir, I believe that I agree with General 
Abizaid. I have talked to General McChrystal several times and 
the actions of Corporal Tillman, based on the discussion I had 
with General McChrystal, certainly would warrant a Silver Star. 
Awards goes through service channels, as everyone else here has 
mentioned here, and do not go through Special Operations 
Command, Tampa, FL. It is an administrative command, goes 
through the administrative chain, which is U.S. Army, not 
Special Operations Command.
    Mr. Clay. Thank you for your response, and over and over 
and again what we have heard--Mr. Chairman, may I conclude?
    Chairman Waxman. If you will conclude.
    Mr. Clay. We have heard the excuse that the military did 
not want to tell the Tillman family and the American public 
about the fratricide until the investigation was complete. As 
General McChrystal put it, they didn't want to put out a half 
baked story. But they did put out a half baked story. It was 
the Silver Star. They didn't wait for the results of the 
investigation. They rushed forward with false statements, and 
that is why the military now faces such skepticism about its 
motives.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Clay.
    Mr. Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman. You know, Mr. 
Chairman, it is sad that the incidence of what historically has 
been called blue-on-blue is as old as warfare itself. And it 
doesn't make it any easier to address this issue.
    You know, Mr. Chairman, this hearing really strikes home in 
a lot of ways. I was just sitting here thinking about the 
Tillman family and, let's face it, when you lose a child, you 
lose a son or a daughter, in the best of situations it is a 
tragedy and a family crisis. Add blue-on-blue and it just adds 
that much weight on your back.
    And I must apologize, Mr. Chairman, I don't know how much 
of this hearing I'm going to sit through. I just realized that 
today is the 23rd anniversary of my first son dying and I just 
kind of relate to what would happen if Philip had been the 
young man who died in a blue-on-blue incident.
    But let me just sort of back up and say, Mr. Secretary, 
we've always give the different branches of the armed services 
flexibility to create a lot of their own internal policies, but 
on this one and the notification and the procedures on not just 
blue-on-blue but also any armed service death, do you think we 
should be developing a uniform strategy that will be required 
to be carried out by the Marines the same as the Army or any 
other armed services or do you believe that we should still 
maintain the flexibility allowing the individual services to 
handle the situation in their manner?
    Mr. Rumsfeld. I think the views of the general officers 
here and their indication that they think this is something 
that might best be handled in a uniform manner are persuasive 
to me. I do think that I am not in a position to say that all 
of the differing positions and policies that the services have 
necessarily ought to be exactly the same. I am a great believer 
in jointness and we have given enormous effort to that over the 
past 6 years.
    But as one example, the tours of Army people tend to be a 
year and the tours of Marines tend to be 7 months, and that 
creates a perceived inequity on the part of some families and 
other people. And I have had meeting after meeting on it 
suggesting that they find a common length of time for a tour, 
and they believe very deeply that the differences fit the 
respective services properly. So I think one size doesn't fit 
all, necessarily.
    Mr. Bilbray. Let me say as somebody who was raised in a 
military family, I support that concept that the services are 
different and they are designed to be different. The big 
decision we made after World War II was not to make them a 
uniform service, specifically to give that kind of diversity of 
service.
    Mr. Chairman, I would just like to close by saying that I 
think the frustration of any family that loses a child is that 
you always look around and say what went wrong? Who is lying to 
me? What information doesn't happen? And with a blue-on-blue 
situation it is just really aggravated and I hope that we have 
learned from this.
    But as somebody who has now reflected after 23 years of 
loss of a child that if there is anything that we ought to 
understand is that it is not only a responsibility of us to 
inform properly, but it is the right of the family. Nothing 
else, no matter how much you may think you are trying to 
protect them, the worst thing you can do is not give the family 
the truth up front as soon as possible. And I think that is a 
right that every family has and that every armed service member 
has earned for their family, that the truth is something that 
is the minimum that the families are deserving of.
    And I yield back to the gentleman from California, Mr. 
Issa.
    Mr. Issa. I thank the gentleman. And because in recognition 
of the Tillman family being here today, we have talked about 
them a lot without fully trying to do what we can to correct 
what is left of the situation. I would like to go back to the 
Silver Star. My understanding, correct me if I am wrong, 
Corporal Tillman stood up to identify his unit, left a position 
where he could have survived, in order to stop the friendly 
fire. Is that correct? Anyone dispute that? OK.
    So the bottom line is one of the most heroic acts anybody 
could do is what Corporal Tillman did that day. Is there 
anything in our regulations that would prevent him from 
receiving a Silver Star simply because he stood up to protect 
his people from friendly fire?
    General Myers. No.
    General Abizaid. No.
    Mr. Issa. So as we sit here today, Corporal Tillman is 
every bit entitled to and will continue to be a person who 
earned a Silver Star, and maybe more. And the point of how he 
died is that, and not who fired the shots. Is that correct for 
the record?
    General Myers. I believe that is correct. Absolutely 
correct.
    General Abizaid. I agree.
    Mr. Issa. Mr. Secretary?
    Mr. Rumsfeld. Yes.
    Mr. Issa. Thank you, Mr. Chairman.
    Chairman Waxman. The gentleman's time has expired. Mr. 
Braley.
    Mr. Braley. Secretary Rumsfeld, does the name Michael 
Mullen mean anything to you?
    Mr. Rumsfeld. Of course.
    Mr. Braley. And can you tell us how you became aware of the 
name of Michael Mullen?
    Mr. Rumsfeld. Oh, I can't. He was the, as I recall, the 
deputy to Admiral Vern Clark, if you are talking about the 
father. There is also a son named Mike Mullen who is, I 
believe, a lieutenant junior grade.
    Mr. Braley. The Michael Mullen I am referring to was a 
young man who was killed in 1970 while serving with the 198th 
Light Armored Americal Division near Chu Lai. His mother, Peg 
Mullen, is a constituent of mine, who lives in Waterloo, IA, 
and was the subject of a book called Friendly Fire, that traced 
the history of fratricide, and specifically the problem of 
fratricide in Vietnam.
    And as part of a congressional delegation who went to 
Vietnam early in the 1960's during the Americanization effort 
there and was part of a comprehensive investigation of some of 
the U.S. economic, military, and assistance programs, and came 
back to Congress as a young Member of Congress very critical of 
the way some of those programs were being operated, I just was 
wondering whether during this period of time you were aware of 
the problem of fratricide, specifically because of the 
visibility that this one particular incident presented?
    Mr. Rumsfeld. Obviously, I was responding to the name Mike 
Mullen referring to the current Chief of Naval Operations and 
his son, as opposed to the individual you are referring to. 
Needless to say, I have been aware of fratricide as a problem 
for many, many decades.
    Mr. Braley. In fact, General Stonewall Jackson was an early 
example of fratricide that a lot of people in the military are 
taught during military history courses. So this concept of 
fratricide and the impact it has on unit morale is something 
that has been known a long time. Would you agree with that?
    Mr. Rumsfeld. Yes.
    Mr. Braley. One of the concerns that Peg Mullen raised when 
she embarked on this crusade to educate the American public 
about the problem of fratricide in Vietnam, was a concern that 
the American people, and specifically American families, were 
not being given the whole truth about the circumstances of 
their loved one's death. And yet the example that we have been 
covering during these two hearings seems to suggest that very 
little has been learned in terms of how the military chain of 
command is dealing with fratricide.
    What lessons would you like us to take away, as the body 
responsible for oversight, on what we can do better to make 
sure that future families, like the Tillman family, don't have 
to go through this?
    Mr. Rumsfeld. You are addressing that to me?
    Mr. Braley. Yes, sir.
    Mr. Rumsfeld. I think the comments that have been made, and 
some of the corrections that have been taken by the Army, and 
the indication that General Brown has discussed with respect to 
greater degree of uniformity in reporting requirements are 
probably all steps in the right direction. I think what you are 
dealing with here is you are always dealing with human beings, 
and human beings make mistakes, and human beings do things they 
shouldn't do. And it is tragic and it is unfortunate, but it is 
reality.
    Mr. Braley. And isn't it one of the most important lessons 
we teach our children that when you make a mistake, you become 
accountable for that mistake and you vow not to repeat the 
mistake?
    Mr. Rumsfeld. Absolutely.
    Mr. Braley. And do you feel that the Army's response to 
this tragedy has been a good example to the children of this 
country of accepting responsibility and accountability for how 
this evolved?
    Mr. Rumsfeld. I expressed myself on a number of occasions 
in memorandums that were read earlier in the hearing that 
indicated my concern about the way the Army was handling the 
matter. I am not in a position to comment on the most recent 
effort that Secretary Geren and General Wallace have 
undertaken, because I just simply have not read what they have 
decided to do. But there is no question but that there were--
that this has been a terribly unfortunate matter, and the 
handling of it has contributed to the grief that fine family 
has experienced.
    Mr. Braley. General Myers, my next question is for you. You 
made the comment during your testimony, we need to keep this in 
mind--this reference to fratricide that we have been discussing 
and the P-4 memo. In case we go before the press, we need to 
calibrate this thing with that in mind. Do you recall that 
testimony?
    General Myers. Absolutely.
    Mr. Braley. What steps did you take, as the Chairman of the 
Joint Chiefs, once you became aware that the dissemination of 
information about this event was inaccurate and potentially 
misleading?
    General Myers. Well, I didn't become aware of that until 
much, much later. All I was referring to at that point was, as 
the Secretary discussed, and I think I discussed as well, is 
that we knew two things. We knew that Corporal Tillman had been 
killed, and then a few days later we knew that there was a 
possibility of fratricide.
    So my comment was on, given that there is an investigation 
ongoing, we have just got to be careful how we speak about this 
because of the command influence. And that is what defense 
lawyers use to get people off, when there is undue command 
influence. You have to be very careful what you say.
    Mr. Braley. In fact----
    General Myers. That was the context of what----
    Mr. Braley [continuing]. Those are similar to the precise 
concerns raised in this P-4, where the author said suspected 
reports that POTUS, the President of the United States, and the 
Secretary of the Army might include comments about Corporal 
Tillman's heroism in speeches currently being prepared. And 
then it says, ``I felt that it was essential that you receive 
this information as soon as we detected it in order to preclude 
any unknowing statements by our country's leaders which might 
cause public embarrassment if the circumstances of Corporal 
Tillman's death become public.'' And the circumstances he is 
referring to here are the circumstances involving fratricide. 
Correct?
    General Myers. The possibility of fratricide, right.
    Mr. Braley. So if you had access to the potential that 
fratricide was involved and you were aware that public 
statements were being made by the President and others about 
Corporal Tillman's heroism, can you explain to the committee 
what steps you took, as Chairman of the Joint Chiefs, to raise 
concerns that this information might be misleading?
    General Myers. Bear in mind I did not see the P-4, so I 
didn't have the benefit of General McChrystal's wisdom.
    Mr. Braley. Let's eliminate the P-4.
    Ms. Norton [presiding]. Let him answer the question, and 
then the gentleman's time has expired.
    General Myers. Can I finish answering?
    Ms. Norton. You can finish answering the question.
    General Myers. What logically I would have done, and I do 
not recall this nor does the Secretary recall, that we would 
have had a discussion that there is potential for fratricide. 
And that would have been probably--I didn't know the President 
was speaking about Corporal Tillman. I mean, that would not be 
something I would know.
    Ms. Norton. The gentleman's time has expired. Mr. Shays for 
5 minutes.
    Mr. Rumsfeld. Madam Chairman, may I just make a comment on 
that same point?
    Ms. Norton. Yes, you may. Go ahead.
    Mr. Rumsfeld. I indicated that I have been reading some of 
the materials, and there has been some confusion, I think, 
about the White House. I have never heard of this person who 
apparently sent an e-mail to the Pentagon. But the person who 
responded from the Pentagon was described in a hearing as a 
speechwriter. And she was actually a fact-checker, not a 
speechwriter.
    And second, my understanding of the e-mails that went back 
and forth, which I was not aware of at the time but I have 
familiarized myself with since, is that the subject that they 
were discussing in the e-mails was not the nature of his death, 
but rather the nature of his enlistment, and that was the 
subject that was being asked, apparently, by the White House of 
a fact-checker in the Pentagon.
    Thank you, Mrs. Chairman. Thank you.
    Ms. Norton. Mr. Shays for 5 minutes.
    Mr. Shays. Thank you. We all agree that Pat Tillman is a 
true American hero, however he died. He died in battle risking 
his life, and he volunteered for service. And it is also clear 
he was such a high-profile member of the Army and the Special 
Forces, it is understandable his death would have gotten 
special attention. And frankly, it would be surprising if it 
didn't.
    Mr. Secretary, I want to thank you for being here today. I 
want to thank you for rearranging your schedule to be here. I 
think this is perhaps one of the first appearances you have had 
in Congress since you have retired as Secretary. And I want to 
thank you, Chairman Myers, and Generals Abizaid and Brown, for 
being here.
    And I want to say I did not choose to ask questions at the 
beginning. I think it centers around, you know, two issues. Who 
knew what when, and who did they tell? And those answers have 
come by pretty quickly. So, you know, it is almost like let's 
get on with it. And we have General Kensinger, who clearly 
needs to be here. But you really answered the questions. And 
you are on record, and you are under oath, and so--but what I 
wrestle with in this committee is we had one hearing where we 
were going to subpoena Condoleezza Rice on yellowcake to try to 
determine that--we had a hearing this week on the embassy in 
Iraq, and the whole focus was on a temporary structure that 
wasn't built as well as it could have been electronically for 
$6,000, when we have learned that the embassy in fact is on 
schedule and is built under cost. And now we have this hearing.
    And what I am wrestling with, and I just want to say this, 
Madam Chairman, is there are a lot of important issues. I mean 
I have had differences with the Secretary and others that it 
would have been interesting to have a dialog about that. Our 
men and women are risking their lives every day. I mean I 
wrestled with Abu Ghraib, one, that it should never have 
happened, but we spent a whole year exposing our dirty laundry 
while our men and women are risking their lives. I am hard-
pressed to know how this is going to save one American life. I 
am hard-pressed to know how this is going to help us achieve 
the results that we need to achieve in Iraq or Afghanistan. And 
we have asked some of our best and brightest to come and spend 
their time talking about this.
    And so as far as I am concerned, gentlemen, you have 
answered the question. And I am particularly grateful, Mr. 
Rumsfeld, that you called their bluff, because really what they 
wanted is for you to not show up, in my judgment. For you not 
to show up, and then they could keep criticizing you.
    So is there anything that you all would like to put on the 
record that you think needs to be put on the record that isn't 
part of the record? And I would be happy to use my time that 
way.
    Mr. Davis of Virginia. Would you yield?
    Mr. Shays. Absolutely.
    Mr. Davis of Virginia. Let me ask a question. General 
Abizaid, you said personal e-mails from the field are a common 
method of communication. I think we have all been there and 
seen that and talked to families. Do you or any of you know 
whether the Inspector General or the CID investigation looked 
at personal e-mails about the Tillman matter sent from the 
battlefield?
    General Abizaid. Sir, I don't know. I believe that every 
record was open to them. They came to my headquarters. I think 
they went to all the headquarters.
    Mr. Davis of Virginia. Personal e-mails wouldn't have been 
part of that necessarily, would they?
    General Abizaid. I can't tell you whether they looked at 
that or not, sir.
    Mr. Davis of Virginia. That could be a source of 
information from the committee dealing with what happened down 
on the ground, Mr. Shays, not what happened here. I think these 
members, they have come up here and they have spent the morning 
with us, but I am not sure they have a lot to share. But thank 
you very much.
    General Abizaid. Although I would say, Congressman, that I 
think from Afghanistan it is a lot different than Iraq. 
Afghanistan is very, very isolated, and it is difficult for 
information to flow as freely from that theater as Iraq.
    Mr. Shays. Reclaiming my time, I want to be on record with 
the fact that I think this was a huge screw-up, bordering on 
the lines of malfeasance, and I think we all agree with that. 
So I am not belittling the issue. I am just simply saying this 
committee should be spending time dealing with some other 
issues that we clearly have to wrestle with.
    Ms. Norton. The gentleman's time has expired. Mr. Kucinich.
    Mr. Kucinich. I thank the gentlelady. I think it is very 
important for this committee to put into context the Tillman 
case, because there is an underlying question here that I don't 
believe has been probed adequately. With respect to my good 
friend on the other side of the aisle, when you are talking 
about matters of fact and fiction in a war, it is incumbent 
upon this Congress in its oversight capacity to be able to 
determine whether or not there was a particular type of 
management of the news of the war.
    And so in connection with that, Mr. Rumsfeld, can you tell 
this committee whether or not in your capacity as Secretary of 
Defense you had discussions within the White House regarding 
press strategies that would be involved in the communication of 
the events of the war to the American people?
    Mr. Rumsfeld. I can say without qualification that I can't 
recall ever having a discussion with anyone in the White House 
on press strategy relating to the Tillman matter in any aspect 
of it.
    Mr. Kucinich. Did you ever have discussions in the White 
House, generally speaking, about press strategies with respect 
to the conduct of the war in Iraq?
    Mr. Rumsfeld. I am sure that the subject of the press and 
the government's dealing with the press has come up on a number 
of occasions. I can recall one when General Casey was out there 
and there were questions raised about the relationship that the 
command had with some Iraqi press people. And there was a 
criticism, for example, of the fact that stories were ending up 
in the articles which were accurate, but would not have been in 
there had there not been some relationship between his command 
and the reporter. And there was a big debate on that.
    I remember another example, which General Myers will 
remember well, and that is the very phrase ``global war on 
terror'' and the differences that some people had, thinking 
that terror is not--you don't war on terror. Terror is a 
technique of choice, a weapon of choice for a terrorist, but it 
is not something you necessarily war against. And that type of 
thing would be discussed. And I frequently would end up using 
the phrase that this was the first conflict of the 21st 
century, and it was really a struggle against violent 
extremists.
    Mr. Kucinich. Was there a press strategy in the White House 
with the war in Iraq?
    Mr. Rumsfeld. You would have to ask the White House. I am 
not----
    Mr. Kucinich. Was there a press strategy that the 
Department of Defense was expected to be mindful of with 
respect to the conduct of the war in Iraq?
    Mr. Rumsfeld. To my knowledge there was no White House 
press strategy that the Pentagon was told to be mindful of.
    Mr. Kucinich. Was there a Department of Defense press 
strategy with respect to the war?
    Mr. Rumsfeld. If there was, it obviously wasn't very good.
    Mr. Kucinich. You know, maybe it was very good, because you 
actually covered up the Tillman case for a while, you covered 
up the Jessica Lynch case, you covered up Abu Ghraib. So 
something was working for you. Was there a strategy to do it, 
Mr. Rumsfeld?
    Mr. Rumsfeld. Well, Congressman, the implication that you 
said ``you covered up,'' that is just false. You have nothing 
to base that on. You have not a scrap of evidence or a piece of 
paper or a witness that would attest to that. I have not been 
involved in any coverup whatsoever, and I don't believe there 
is an individual at this table, who I know well and observed at 
close quarters in very difficult situations, who had any role 
in a coverup on this matter.
    Mr. Kucinich. Thank you for acquitting yourself. I was 
speaking of the Department of Defense, and I was speaking of 
things that are manifest and obvious.
    We held a hearing on the Tillman case, we held hearings on 
Abu Ghraib, and the hearing on this. You have not been able to 
establish how is it that this news could get out; no one 
managed it, no one communicated it to the American public, it 
just happened. I mean you haven't really given this committee a 
good explanation as to how it happened, Mr. Rumsfeld.
    Mr. Rumsfeld. This committee has held many hours of 
hearings on the subject, and they have had the witnesses of the 
people who were responsible for the management of this issue, 
and it was the U.S. Army.
    Mr. Kucinich. Was there any outsourcing of that message? 
Was the Rendon or Lincoln Group involved in communicating any 
messages----
    Mr. Rumsfeld. You would have to ask them. You would have to 
ask the Army.
    Mr. Kucinich. Did the Department of Defense have any 
connection at all with any outside individuals to communicate 
messages to the general public to help in the shaping of that 
message? Was there a press strategy involved?
    Mr. Rumsfeld. On this subject, not to my knowledge.
    Mr. Kucinich. Was there a press strategy involved?
    Mr. Rumsfeld. On this subject, not to my knowledge.
    Mr. Kucinich. Was there a press strategy involved generally 
that you used----
    Mr. Rumsfeld. I have already answered that question.
    Mr. Kucinich. Well, I don't think you have. Not to my 
satisfaction.
    Mr. Rumsfeld. To the best of my ability.
    Mr. Kucinich. Was the Rendon Group involved in 
communicating a press strategy on behalf of the Department of 
Defense with respect to the war in Iraq?
    Mr. Rumsfeld. You would have to ask the people in the 
Department.
    Mr. Kucinich. You have no knowledge of this whatsoever?
    Mr. Rumsfeld. I am aware that there have been, over the 
years, contracts with that organization from various entities 
within the Department and outside of the Department. Whether 
there was in a manner that would fit your question, I am not in 
a position to answer.
    Mr. Kucinich. You just said that you have some awareness of 
it. Could you elaborate on that, sir?
    Mr. Rumsfeld. I elaborated to the extent of my ability. I 
know that there are some entities in the Department that have 
used contractors for some things of that type over the years. 
And you would have to ask experts on that subject, not me.
    Mr. Kucinich. Mr. Chairman, I think it is very important 
that this committee determine whether or not the outsourcing of 
press was one of the elements responsible for communicating to 
the public something that seemed to be beyond the understanding 
of the Department of Defense.
    Chairman Waxman [presiding]. Thank you, Mr. Kucinich.
    Mr. Kucinich. Thank you.
    Chairman Waxman. Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman, and thanks to all the 
witnesses. I apologize if the questions I ask will cover ground 
that has already been covered.
    Secretary Rumsfeld, you testified on a number of occasions 
that you don't remember when you were first alerted to the fact 
that the Tillman death had been mischaracterized. Do you 
remember whether you were satisfied or dissatisfied as to 
whether you had been notified in a timely fashion?
    Mr. Rumsfeld. You are directing the question to me?
    Mr. Yarmuth. Yes, sir.
    Mr. Rumsfeld. I tell you, earlier on in this hearing I 
indicated that there was the problem of command influence. And 
I think I indicated that it is not a surprise to me that the 
Secretary is not brought into periodic reports on what is 
taking place with various investigations of a criminal nature--
potentially criminal nature.
    Mr. Yarmuth. I am speaking before there would have been any 
reason for an investigation. When you were--at some point you 
obviously knew that--you came to know that there was suspicion 
that the Tillman death had not been characterized appropriately 
or accurately.
    Mr. Rumsfeld. True. And at that moment there was already an 
investigation going on, because it was a----
    Mr. Yarmuth. My question, though, sir, is do you remember 
whether you were upset that you had not been notified, or was 
this something that you would have expected not to be notified 
about? Did this bother you that you weren't notified?
    Mr. Rumsfeld. As I say, the fact that I was not an 
addressee on the P-4 did not surprise me. There are all kinds 
of communications that I was not engaged in.
    Mr. Yarmuth. So you would not necessarily have expected to 
be notified about this on a timely fashion. That is the 
question I am asking.
    Mr. Rumsfeld. It does not surprise me that I was not. It 
was not something that I would have had a voice in or a role 
in.
    Mr. Yarmuth. How did people who worked for you know when to 
tell you about things that they thought you ought to know?
    Mr. Rumsfeld. Oh, goodness. How did they know? You would 
have to ask them. But what we had is frequent meetings. We had 
a roundtable session almost every day. And the senior people 
from the various entities within the Department were there, and 
their task was to raise issues that they thought the group and 
I ought to be aware of. And General Myers participated in those 
every day.
    Mr. Yarmuth. So you didn't have any policy as to what 
people should bring to your attention and what they shouldn't?
    Mr. Rumsfeld. Except the one I mentioned earlier, which is 
the one of command influence, where the general counsel issued 
regulations--not regulations, recommendations for the senior 
people in the Department to be very careful about getting into 
and commenting on, internally or externally, investigations and 
matters that potentially could end up in the Uniform Code of 
Military Justice, as indeed this has.
    Mr. Yarmuth. General Abizaid, what about you? Did you have 
policies as to when you should be informed about things such as 
whether a casualty had been mischaracterized?
    General Abizaid. Yes, sir. I wanted to know right away what 
happened. Of course.
    Mr. Yarmuth. And were you satisfied in this case that you 
were?
    General Abizaid. No, I was not satisfied.
    Mr. Yarmuth. Some of this seems--and maybe I am naive--but 
seems surprising to me, because we have this perception of 
there being fairly rigid lines of command in the military. And 
it seems to me it would be fairly simple--and I hope you will 
explain to me why I am wrong--to go down that line of command, 
starting at the top, and say, basically, did you know? Why 
didn't you know? And to follow that line down. Is that not a 
reasonable expectation?
    General Abizaid. I think that this was a simple case that 
should have been transmitted efficiently and quickly. It was 
not. It should have been transmitted the day after the P-4 
arrived in my headquarters. But as I have testified, there was 
a problem somewhere between the 28th, and I guess that probably 
the earliest I would have told the chairman is the 6th. But I 
called him from Qatar. I was in Qatar the 6th, 7th, 8th, 9th, 
11th. And when I called him I was embarrassed about it. And I 
do take responsibility for the fact that my headquarters 
screwed up. I didn't punish anybody. We fixed the problem. It 
wasn't the first P-4 that went astray and it wasn't the last 
one. But it happened, and that is all I can say about it.
    Mr. Yarmuth. I know my time is about to expire, so I just 
want to ask one further question of Secretary Rumsfeld. Was 
there ever, other than this particular--you talked about the 
investigation. Was there any other circumstance in which the 
people who worked for you were directed not to inform you about 
certain things? Were there things that they were told you 
weren't supposed to be informed about?
    Mr. Rumsfeld. No. And I did not want to leave the 
impression in this instance that I was--instructed anybody to 
not inform me of something like that. What I was describing was 
the admonitions that the general counsel issued directly to me 
and to others that you must not get--you should not get 
involved in matters where, as the general said, a defense 
attorney could allege that you had exerted undue command 
influence in a way that damaged the case or polluted the 
environment for the defendant, either favorably or unfavorably. 
And that is something that people were aware of. Not that they 
shouldn't tell me something, but that I shouldn't get involved 
in those things. And people watched a pattern of behavior, I 
suppose, and I didn't get involved with them, except one time.
    Mr. Yarmuth. Thank you.
    Chairman Waxman. The gentleman's time has expired. Mr. 
Burton, do you seek recognition?
    Mr. Burton. I am sorry, Mr. Chairman, I am late. Mr. 
Secretary, it is nice seeing you again.
    Mr. Rumsfeld. Thank you.
    Mr. Burton. June 25, 2002, you wrote a snowflake to Army 
Secretary Tom White, and you wrote, ``Here is an article on a 
fellow who is apparently joining the Rangers. He sounds like he 
is world class. We might want to keep our eye on him.'' Can you 
tell us what you meant by that?
    Mr. Rumsfeld. Exactly what I wrote. That a fine individual 
who was quite prominent had joined the Rangers. And that was a 
good thing.
    Mr. Burton. Well, when you said to Secretary White keep his 
eye on him, you meant that he has potential?
    Mr. Rumsfeld. I wouldn't know that. I just think here is an 
individual who is serving his country and is prominent and gave 
up a good deal to do that; and that we, as people in the 
Department, ought to acknowledge that and be grateful for his 
service, as I was.
    Mr. Burton. You didn't single him out asking for progress 
reports or anything like that?
    Mr. Rumsfeld. No. Of course not.
    Mr. Burton. OK. Thank you very much.
    Chairman Waxman. Let's see, the next one in line is Mr. 
Hodes.
    Mr. Hodes. Thank you, Mr. Chairman.
    Gentlemen, as I understand it, there have been at least six 
different investigations into this matter. It appears that each 
of those investigations had serious flaws. First there was 
Captain Scott's investigation, completed within 2 weeks of the 
incident. Second, Colonel Kauzlarich's investigation--I don't 
know whether I have butchered his name--which was finished on 
May 16, 2004.
    The DOD IG concluded that these two investigations were, 
``tainted by the failure to preserve evidence, a lack of 
thoroughness, and the failure to pursue investigative leads.''
    Third was an investigation by General Jones completed 6 
months later. The IG had similar criticisms of that report.
    Fourth, the IG report itself, issued in March of this year. 
But the IG was unable to determine who doctored key witness 
statements supporting the Silver Star award.
    And fifth, was an Army Criminal Investigation Division 
investigation finished at the same time as the IG 
investigation. This report inexplicably concluded there were no 
rules of engagement violations, even though there was a 
friendly fire fatality and multiple injuries.
    And finally, as of yesterday, General Wallace has completed 
his investigation. General Wallace's investigation apparently 
suffered from an overly narrow scope, failing to examine the 
actions of key military leaders. And we have before us the top 
military brass involved in these questions at the time: General 
Brown, General Abizaid, General Myers, and Secretary Rumsfeld.
    Now, let's put aside for a moment the merits of each of the 
individual investigations. Do you all, gentlemen, agree that it 
should not take six different investigations, 3 years, 
congressional investigations, and millions of taxpayer dollars 
to address the significant failures that have occurred in this 
case?
    Mr. Rumsfeld. Absolutely.
    General Myers. Agree.
    General Brown. Yes, sir.
    General Abizaid. Agree.
    Mr. Hodes. Secretary Rumsfeld, the approach of ordering a 
series of military investigations that are limited in scope and 
that do not address the question of what top officials knew 
appears to be the Department of Defense's MO when it really 
doesn't want accountability.
    When the allegations of abuse at Abu Ghraib arose in 2004, 
the Pentagon took the same approach. First, there was the 
Taguba investigation, limited to the conduct of the military 
police at Abu Ghraib. Second was the Fay investigation that 
examined the conduct of the military intelligence personnel at 
Abu Ghraib, but there was no inquiry into the involvement of 
the civilian leadership. Third was the Army Inspector General's 
investigation, which focused on interrogation practices in 
general in Iraq and Afghanistan, without examining the role of 
top Pentagon leadership. In all there were over a dozen 
investigations by the Pentagon into detainee abuse issues, but 
none has resulted in a full understanding of the civilian 
leadership's involvement in the abuses. None has resulted in a 
full understanding of your involvement or the involvement of 
the White House.
    Mr. Secretary, do you see the parallels here? Do you see 
why some would think that in the case of both Abu Ghraib and in 
the Tillman investigation there were deliberate efforts to 
avoid accountability? And if you see that, the manner in which 
this serial kind of narrow investigating, never answering the 
questions about who at the top knew what is a problem, what do 
you think ought to be done so that the American people can be 
assured that the top leadership in this country is accountable, 
is willing to come forward and tell the truth, and is going to 
take the actions to reassure the American public that abuses 
won't happen again?
    Mr. Rumsfeld. Congressman, I don't obviously agree with 
your characterization of the history of this. There was an 
independent panel that looked at Abu Ghraib at the senior level 
and issued a report. There is a problem, I don't disagree at 
all, with the perception that you end up in a situation like 
the Tillman case, where you have five, six or seven separate 
investigations. And there are a variety of reasons as to how 
they got from where they were to where they are today with the 
most recent Army investigation and announcement.
    None of the answers are satisfactory. It is unfortunate. It 
is harmful. It causes exactly the perception that you are 
promoting. And it is regrettable.
    Mr. Hodes. What should be done about it?
    Mr. Rumsfeld. I don't know. I wish I had some brilliant 
answers. One of the things I might just mention is that under 
Goldwater-Nichols, the command responsibility is separated from 
the organized train-and-equip responsibility. And as a result, 
you end up with people who are down one of those chains of 
accountability and responsibility, and some people who are down 
the opposite chain, the administrative as opposed to the 
command. However, in the middle at various places, there are 
individuals who have a hat, if you will, in both of those. And 
you end up frequently with a long pause as to who should do 
what, who has the responsibility. Should it go up? Should the 
court martial or the investigation be done at this level or 
that level? Should it be done in the administrative chain or 
the command chain? Obviously, the problems usually happen in 
the command chain, so there is a tendency to be biased toward 
that.
    On the other hand, you take a man like John Abizaid, who 
was the combatant commander in that case, he was fighting a 
war. He was busy. He was traveling all over the world. And 
there is an attraction to moving the responsibility for such an 
investigation over to the administrative chain, because those 
individuals are not engaged in the actual chain of command and 
wrestling with those problems.
    I don't know what the answer is. But I know that there is a 
tension there that I find confusing as to who is going to take 
responsibility for it from the bottom up. And you end up--
possibly one of these gentlemen who have lived it can make a 
better analysis than I have, but I have been concerned about 
it, and expressed concern about it within the Department, and I 
think it in some way contributes to the problem that you are 
talking about.
    Mr. Hodes. Thank you. I see my time is up.
    Chairman Waxman. The gentleman's time is up, but General 
Abizaid, did you want to comment on that point?
    General Abizaid. Sir, I think it is very important to 
understand that the way the warfighting system is designed is 
to keep the operational commanders' hands free with forward-
looking battlefield activities and operational decisions. The 
administrative chain of command in this case, going through the 
Department of the Army, handles things like notification of 
families, awards, logistics, etc. And I think it would not be 
beneficial to try to saddle the combatant commander with all 
the administrative functions, because it would cause his staff 
to become too big, too unwieldy, and would frequently cause 
that person to take their eye off of the immediate actions 
going on in the battlefield.
    And I would like to point out that during this time period, 
if it had been the only event that was occurring in the 
theater, it could hardly be understood that the information 
didn't flow freely. But the battle of Fallujah was taking place 
around this time, all sorts of various military activities, 
both in Iraq and Afghanistan, 27 different countries in the 
region responding to various political-military activities, 
etc.
    It is absolutely essential that we keep track of what is 
happening in order to make sure that the right resources are 
applied at the right place and that lives are preserved in the 
way that we conduct our military operations.
    Chairman Waxman. Thank you, General. Mr. Shays.
    Mr. Shays. I have had my time.
    Chairman Waxman. Oh, you have had your time. So the next 
would be Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Secretary Rumsfeld, I understand that Mr. DiRita was one of 
your closest advisers. And I would like to ask about your 
knowledge of Mr. DiRita's actions with respect to the White 
House. In the 1970's you issued your famous Rumsfeld's Rules, 
with lessons for the Secretary of Defense. Here was one of 
those lessons: ``Manage the interaction between the Pentagon 
and the White House. Unless you establish a narrow channel for 
the flow of information and tasking back and forth, the process 
can become quickly chaotic.''
    Was Mr. DiRita your channel to the White House?
    Mr. Rumsfeld. No, Mr. Congressman, he was not. He was a 
link in the sense that he was in charge of the Public Affairs 
Office. And the public affairs officers in the executive branch 
of the government do communicate on a regular basis, including 
the White House. There were multiple channels to the White 
House. There was not a single one. There can't be, regrettably. 
I mean the chairman has already indicated he not only was the 
senior military adviser to me, but also to the President, to 
the Secretary of State, the National Security Council, and the 
Vice President. But the principal link tended to be my senior 
military assistant.
    Mr. Davis of Illinois. This may have been mentioned 
earlier, but we have a copy of an e-mail dated April 23, 2004, 
the day after Corporal Tillman was killed, from Jeanie Mamo, 
the White House----
    Mr. Rumsfeld. From whom?
    Mr. Davis of Illinois. Mamo. From Jeanie Mamo, who was the 
White House Director of Media Affairs, to Mr. DiRita. The e-
mail asked for information about the circumstances surrounding 
Corporal Tillman's death. The question I wanted to ask, though, 
is were you aware that the White House contacted Mr. DiRita and 
requested information?
    Mr. Rumsfeld. I have no recollection of that from that 
time, and I have not heard of this e-mail even in the 
preparation for this hearing.
    Mr. Davis of Illinois. Let me ask, could there have been 
some reason that Mr. DiRita didn't inform you of these 
communications, or would it be normal for him to inform you 
that he had been contacted by the White House?
    Mr. Rumsfeld. When he was head of Public Affairs, which I 
think is the case at this time, he met in the roundtable, he 
met every day with the chairman and with me. What he decided to 
inform me of was his call.
    But someone just put this in front of me, and I have not 
read it. It says, ``Jeanie, is there anyone who can hook me up 
with someone at the Pentagon that can give me an off-the-record 
brief on the mission in Afghanistan where the former NFL star 
Pat Tillman was killed yesterday?'' and that was from a press 
person, I believe. Jeanie Mamo, I don't know who that person 
is. I think it is a press person, not the White House, but I 
just don't know. It says Sports Illustrated.
    Mr. Davis of Illinois. Well, when he replied to the White 
House, Mr. DiRita stated, ``See what we can do. Details are 
sketchy just now.''
    Mr. Rumsfeld. Apparently this is a request from someone in 
the press for him to give him some information. And the--it 
looks like the request, this Jeanie Mamo is from the press or 
else--and sent it to the White House or to DiRita. I just don't 
know. I don't know anything about it.
    Mr. Davis of Illinois. Except that memo is actually a White 
House official.
    Mr. Rumsfeld. She is?
    Mr. Davis of Illinois. Yes.
    Mr. Rumsfeld. OK.
    Mr. Davis of Illinois. But my question is did Mr. DiRita 
ever tell you what information, if any, he ultimately gave to 
the White House?
    Mr. Rumsfeld. No, I have no idea. Normally what he would do 
would be to talk to the Army and see what the Army had to say, 
was saying publicly about it, and then have the Army talk to 
the White House or the press person.
    Mr. Davis of Illinois. One person the committee interviewed 
was NATO Supreme Allied Commander General Vance J. Craddock, 
who previously served as your senior military assistant.
    Mr. Rumsfeld. Right.
    Mr. Davis of Illinois. General Craddock told us bluntly 
that Mr. DiRita often cut him out of the loop on military 
matters. And here is what General Craddock said, ``I will tell 
you there could have been discussions and meetings that I would 
not have been privy to, because occasionally that happens. The 
fact of the matter is, and I will just tell you that DiRita and 
I occasionally got into a bit of a dither over the fact that I 
felt he was not informing me of military issues or that he felt 
I was usurping his authority to deal with political issues.''
    General Craddock told us there were oftentimes events that 
happened in Public Affairs that were, quite frankly, between 
Mr. DiRita and the Secretary. And I guess what we are trying to 
find out here is were there communications back and forth 
between you and Mr. DiRita that the military people were not 
getting?
    Mr. Rumsfeld. I am sure that if you take the senior 8 or 10 
people that reported to me, that in each case there were 
activities that I would deal with them individually on and not 
include the whole group. There is no way the whole group could 
be involved in every single thing that was going on.
    For example, the senior military assistant might be 
involved in military personnel matters, whereas DiRita would 
not be in Public Affairs. And vice versa. There might be some 
Public Affairs issue that the senior military assistant might 
not be involved in.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Davis of Illinois. It has expired?
    Chairman Waxman. Yes.
    Mr. Davis of Illinois. So it is possible that Mr. DiRita 
and yourself could have had discussions or communications about 
military matters that----
    Mr. Rumsfeld. No. No. That would be highly unlikely. I just 
can't imagine it. No. The military matters I dealt with 
basically were through General Myers and General Pace. And to 
the extent the senior military assistant was appropriate to 
have him involved, he was involved. But there was generally a 
division of labor. It is not a perfect division. There is no 
way you can say this matter was only military or only public 
affairs. Obviously, the Tillman matter was a combination of 
military and public affairs problems. And so too with any 
number of things. So frequently the group discussed things in 
the roundtable meetings.
    Mr. Davis of Illinois. So you disagree with General 
Craddock. Thank you very much.
    Mr. Rumsfeld. I can't do that. General Craddock is a 
terrific officer. I don't know what he said. I don't know the 
context of the questions he was asked. And therefore, to say I 
disagree with him, I think probably wouldn't be accurate unless 
I invested some time to really understand what he was saying.
    Mr. Davis of Illinois. Thank you very much.
    Chairman Waxman. Thank you, Mr. Davis. Mr. McHenry.
    Mr. McHenry. Thank you, Mr. Chairman. I appreciate you all 
testifying today.
    The one thing that has not been read into the record--it 
has been submitted to the record--is the chairman at the 
beginning of this meeting, of this hearing, spoke of the word 
``embarrassment'' in the P-4 memo. What he did not actually 
highlight, which I think we all should highlight, is that there 
was a man involved here. And I say this to my colleagues and I 
say to all of those who were listening, there was still heroism 
involved in this incident. And I think some of this is about 
trying to point fingers and score political points.
    I don't think that is what it should be about. Let's talk 
about who Corporal Tillman was. And from this P-4 memo, the 
potential that he might have been killed by friendly fire in no 
way detracts from his witnessed heroism or the recommended 
personal decoration for valor in the face of the enemy. I think 
that is what this hearing should be about, that valor in the 
battlefield of putting himself in harm's way, not about 
pointing fingers after the fact.
    I think this has been much covered, that there were screw-
ups in the bureaucracy. And there were screw-ups. And I think 
everyone agrees. I don't think there was a coverup. I think 
there was a screw-up, and that has had a lot of coverage.
    Corporal Tillman was killed in a complicated battlespace 
geometry involving two separate Ranger vehicle serials 
traversing through severe terrain along a winding 500- to 600-
foot defile in which friendly forces were fired upon by 
multiple enemy positions. This is a complicated battlefield 
environment. And I know from the gentlemen testifying here 
today who are generals or retired generals, you have been under 
fire. And you know how complicated this is.
    So let us think and give Corporal Tillman his due for that 
heroism in the battlefield. Let us give him his due, and let's 
properly quote the record of what he submitted himself to in 
the battlefield.
    And so with this, I would be happy to yield to my colleague 
from California, Mr. Issa.
    Mr. Issa. I thank the gentleman. I think you characterized 
a lot of what this committee hearing should be about. I want to 
take note of how it was advertised, to be quite frank. I think 
that is appropriate at this point, the Tillman fratricide, that 
is fair.
    What Defense Department officials knew, you know, I don't 
think that is what this hearing realistically is about. I think 
it has become pretty obvious that at the lowest levels people 
understood there were a problem. At the level of a full 
colonel, it was reported and reported promptly. Clearly, there 
was some confusion about when who got told during the specific 
investigation, because those investigations don't just find out 
was it friendly fire. They find out how it happened so it 
wouldn't happen again.
    General Brown, is that essentially the real reason behind 
what I think is, what, a 15-6, is to make sure these don't 
happen again?
    General Brown. Right. A 15-6 is a military investigation.
    Mr. Issa. Right. So the fact is that there was a failure to 
disclose, pursuant to Army regulations that were about 2 years 
old, to disclose that it may have been friendly fire to the 
family. And that is certainly beyond regrettable.
    But the actual investigation, I just want to get this into 
the record, was begun promptly, related to how he was killed 
and the possibility it was friendly fire. Is that correct?
    General Brown. That is my understanding from General 
McChrystal. He called me the day that he was going to initiate 
the 15-6.
    Mr. Issa. And at the end of that, is there an after-action 
report? Are we better able to prevent this from happening in 
the future as a result of that investigation? Has that circle 
of quality been adhered to?
    General Brown. I think it has. We had that discussion I 
guess before I left command, to ensure that we were doing a 
good job of capturing lessons learned to ensure that these kind 
of events didn't happen again. I think in the TTP, or tactics, 
techniques, and procedures that were used that day, the radio 
problems, all the other issues I think have been addressed, and 
they are trying to use that 15-6, at least at the Rangers and 
down at General McChrystal's organization, to ensure we don't 
have those kind of problems again.
    Mr. Issa. Additionally, at the Department of Defense, as a 
result of the pain and suffering the Tillman family went 
through because of the misinformation, has it been made clear 
that this should never happen again, that the family has a 
right to be informed promptly so that this particular mistake 
couldn't happen again?
    General Brown. Well, I can speak for SOCOM, but at the 
Special Operations Command it is perfectly clear.
    Mr. Issa. OK. I thank the chairman.
    Chairman Waxman. The gentleman's time has expired. Ms. 
Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I just want to be clear that the family asked this 
committee to investigate the circumstances of Corporal 
Tillman's death, and that Kevin Tillman himself indicated that 
this hearing was no reflection upon the bravery of this hero. 
And no implication should be left that our continuing 
investigation is anything but an attempt to do what this family 
wants done.
    Secretary Rumsfeld, you have indicated, I think quite 
eloquently, that it is your responsibility, the responsibility 
of the military, to tell the truth. And I want to make sure 
this also involves uncovering the truth, particularly in light 
of allegations that have been made in the press and elsewhere 
about whether you sought deniability in reconstructing what you 
were told and when in responding to the Inspector General in 
particular.
    Your lawyer, in preparing a response to the DOD Inspector 
General, said that you asked a junior staff member in your 
office to help determine when you learned that Corporal 
Tillman's death was a possible fratricide. The staff of our 
committee then contacted that staff member, and he told us of 
placing a few phone calls, found a person who had been in a 
meeting with you on May 20, 2004, during which he said Corporal 
Tillman's case was mentioned. Now, this person claimed, 
however, that he was not the source of the information and 
cannot remember who was. This does not sound like the most 
thorough attempt to reconstruct what you knew or what actions 
you took.
    During our own investigation, the committee staff talked 
with Lieutenant General Craddock. Now, he was your senior 
military assistant at the time in 2004. And he told us that he 
worked closely with you on a daily basis, sometimes in touch 
with you many times a day. But he says that your office never 
contacted him to ask for his recollection or documents. I am 
asking, why did you not consult this close assistant of your 
own, General Craddock, before responding to the Attorney 
General [sic] concerning what you knew and when you knew it?
    Mr. Rumsfeld. My recollection of this is close to that. It 
was the--I believe the last series of days I was in the 
Department. There were a great many things going on. The 
Inspector General asked some questions. And my civilian 
assistant, Mr. Rangel, as I recall--I said figure out if there 
is any way we can know when I was told, because I don't 
remember.
    Ms. Norton. Your Senior Military Assistant might have been 
one way you might have known.
    Mr. Rumsfeld. He, of course, was gone.
    Ms. Norton. That didn't keep him from being consulted.
    Mr. Rumsfeld. I understand that. I am going to answer your 
question. He then checked with some people, and one of the 
individuals said what you said he said; namely, that he was in 
the room when I was told, and it was on or after he got back 
from Iraq. And that was this Colonel Bucci who has been 
mentioned previously. We were not asked--we were asked what we 
recalled and recollected. We were not asked to undertake an 
investigation and go back and consult a series of people and 
find out the answer. That was the job of the Inspector General. 
I think you said Attorney General, and I think you meant 
Inspector General.
    Ms. Norton. Inspector General, sir.
    Mr. Rumsfeld. That was his job to try to fashion all of 
that. And he did, and he produced a report, and he said he felt 
that my responses were--met his question.
    Ms. Norton. Mr. Secretary, he was trying to find out 
something very specific, what you knew and when you knew it. 
And his job was to question you and to find out, to the best of 
your ability, what you knew and when you knew it. And here was 
your senior military assistant, the one person we would have 
expected you to consult with, and he was not consulted. And I 
am asking why was he not consulted?
    Mr. Rumsfeld. My guess is there were any number of people 
who were not consulted. And I guess the answer to that question 
is one would have to ask the Inspector General or ask Mr. 
Rangel.
    Ms. Norton. No, I am asking you, because you didn't consult 
them, sir.
    Mr. Rumsfeld. No, they asked me what I recalled, and I told 
them what I recalled.
    Ms. Norton. I am simply noting that you did consult a 
junior member of your office, but not the man who would have 
been most likely to know, the man who reported to you several 
times a day. You didn't consult as well with Mr. DiRita, your 
director of communications, who during this period had been in 
touch with the White House. Didn't you feel it important to 
consult with him before responding?
    Mr. Rumsfeld. I did not consult with a junior member of my 
office. I consulted with the senior civilian assistant, who is 
your principal assistant as Secretary of Defense, along with 
your senior military assistant. Mr. Rangel was that individual. 
He is the one who then talked to people to find out, and one of 
the people he talked to was Colonel Bucci. Mr. DiRita also was 
no longer in the Department. There are any number of people one 
could have--we could have gone to Dick Myers, who was no longer 
in the Department. And there must have been 20, 30 people who 
were in the roundtable meeting, where I may very well have been 
informed. But I was asked what I recalled, and I gave a very 
direct, honest answer to that.
    Ms. Norton. Thank you, Mr. Secretary. I understand. The 
point is when the Inspector General is trying to find out 
something that is very difficult for you, yourself, out of your 
own consciousness, to have remembered, to have consulted with 
those most likely to have helped you remember would have seemed 
to be appropriate in uncovering the truth.
    Thank you very much.
    Chairman Waxman. Thank you, Ms. Norton.
    Mr. Welch is next, but Mr. Davis wanted to just make a 
statement.
    Mr. Davis of Virginia. Mr. Chairman, I just wanted to note 
for the record you and I have signed a letter to Claude 
Kicklighter, the Inspector General, and to Brigadier General 
Rodney Johnson, the Provost Marshal and the Commanding General 
from the Army Criminal Investigation Command, asking if they 
did look at the personal e-mail accounts of soldiers, which was 
a common means of communication over there, as we said, to try 
to keep all the stones, look under every one of them. We think 
this will make the investigation more complete. I want to note 
that for the record.
    Chairman Waxman. Thank you. We have joined together in that 
letter. Mr. Welch.
    Mr. Welch. Thank you, Mr. Chairman. Thank you for 
conducting this hearing.
    There are, I think, two issues. One is the treatment of the 
family of the fallen soldier. My impression and experience here 
so far in Congress is that the military takes very, very 
seriously its obligation to the soldier and to the family 
members to try to provide them with as much information as 
possible, understanding the desperate need that a mom and a dad 
have, a brother and a sister, to know as much as they possibly 
can about the circumstances of their loved one's death. And we 
have been through that here with you, and I don't think I will 
go onto that enormously.
    I think there is a second issue that has been raised, and 
it is whether the pressure on the administration to give good 
news versus bad news about its initial decision to go to war at 
times causes the information to be emphasizing the good instead 
of the bad, and, at its worst, to actually distort what the 
facts are.
    What is significant about this war, in contrast to any 
other in our history, is that the sacrifice associated with the 
war has been borne entirely by the men and women and their 
families of an all-volunteer military. It is the first war 
where we have had multiple tax cuts. It is the first war where 
we have paid for it by going off budget. It is the first 
significant war where it has been an all-volunteer force, and 
there has been no draft requiring middle-class or well-to-do 
families to be part of it, whether they wished to or not.
    And the question I have, and I am going to direct this 
initially to General Myers, is this. General, in contrast to 
Vietnam, which was a war that was going on when I was in 
college, every time there was a fallen soldier whose remains 
were returned to Burlington, VT, or Springfield, MA, or Chico, 
CA, the local press was there. It was a solemn occasion. It was 
sad, but it was real. And it conveyed to that local community 
the awesome price that this war was inflicting on the lives of 
their neighbors.
    It is my understanding that the Pentagon policy in this war 
is to deny access to the press upon the return, the official 
return of the soldier's remains. And can you advise me whether 
I am correct on that?
    General Myers. My understanding is that the policy for the 
folks returning through Dover, that there is no press there. It 
is a policy in respect for the families. Other than that, you 
are absolutely right. And I think, by the way, that is 
appropriate. I don't think it is appropriate to hide the fact 
that the men and women in this country are dying in the defense 
of this country. And we should never do that, because people 
need to understand the sacrifice. And as you pointed, out too 
few people understand that.
    I might just add it is not the military; there are 
Ambassadors, foreign service officers, a lot of American 
civilians and third-country nationals that share this risk with 
us in Afghanistan and are killed, as well in Iraq.
    Mr. Welch. This policy was changed. In the past the press 
has been allowed to document the arrival of our returning 
fallen soldiers. Correct?
    General Myers. I can't tell you. I do not recall if it was 
changed.
    Mr. Welch. I mean you are my age or older.
    General Myers. Right. Yeah. It must have been somewhere 
along the line, if you recall it that way. I was overseas for 
most of the sixties when Vietnam was going on and part of that 
process, so I don't remember what was happening back home 
frankly.
    Mr. Welch. Secretary Rumsfeld, could I ask you to comment? 
What would be the rationale for the Pentagon denying access to 
a respectful press to document the return of the remains of a 
fallen soldier?
    Mr. Rumsfeld. I think you would have to ask the Department 
of Defense Public Affairs people, but my recollection is the 
same as General Myers'; that the policy at Dover is that the 
press does not cover that arrival, but that it is up--I thought 
it was up to the families to determine the extent to which the 
press would or would not be involved in the actual memorial 
services or burial services, and that--it leaves it to the 
families to make those decisions.
    Mr. Welch. But the official return in the custody of 
military personnel of a casket----
    Mr. Rumsfeld. They remain in the custody of the military 
personnel until they reach the family.
    Mr. Welch. But it is different the way this is handled in 
this war, Iraq and Afghanistan, than it was, for instance, in 
Vietnam.
    Mr. Rumsfeld. I don't know that. I accept your comment but 
I just----
    Mr. Welch. General Abizaid.
    General Abizaid. Sir, I don't know what the policies are on 
returning soldiers. I do know that since I have been retired, 
the press certainly covers those services that take place in 
northern Nevada and eastern California, and they always do so 
in a most respectful way.
    Mr. Welch. And the soldiers when they return initially, 
they arrive at Dover?
    General Abizaid. Most remains go through Dover, yes, sir.
    Mr. Welch. And no press is allowed to document their 
return?
    General Abizaid. I don't know. I think it would be best for 
me not to answer. I don't know.
    Mr. Welch. All right. I waive the balance of my time. Thank 
you, Mr. Chairman.
    Mr. Lynch [presiding]. The gentleman yields. The Chair 
recognizes the gentleman from Idaho.
    Mr. Sali. Thank you, Mr. Chairman.
    Either General Abizaid or General Brown, it would be fair 
to say that when there is an event that is suspected of 
involving friendly fire, that has an impact on morale on your 
troops, doesn't it?
    General Brown. Absolutely.
    General Abizaid. That is correct.
    Mr. Sali. And if I understand things correctly, at this 
point you really have to choose what the procedures will be for 
the military. If you have an allegation of friendly fire, which 
I understand was already in the works on April 23, 2004, you 
knew that there was some suspicion at least.
    You have to choose at that point whether you disclose to 
the family or whether you don't disclose to the family and wait 
until the outcome of the investigation before you announce that 
there was or was not some, perhaps, involvement with friendly 
fire from the death.
    You have to choose between one of those two things; is that 
correct?
    General Brown. I don't think you have to choose. I think 
that is maybe part of the problem. There are people that 
believe that you have to wait until the investigation is fully 
completed before the family is allowed to be told. I believe 
those were older Army regulations.
    The current Army regulation, as I understand it, is that 
you immediately notify the family if there is an investigation 
going on, but in all cases sooner than 30 days. No later than 
30 days the family has to be notified if there is an 
investigation going on and kept informed of the ongoing 
investigation, as I understand the regulation.
    Mr. Sali. Am I correct from the time of Corporal Tillman's 
death to the time the investigation was finished was, in this 
case, 37 days?
    General Brown. I'd have to look at the time line. I don't 
know, Congressman.
    General Abizaid. Congressman, on the 28th I approved the 
report that came from General McChrystal's command as being 
definite proof of friendly fire. The May 28th.
    Mr. Sali. May 28th, a little over 30 days in this case, 
versus what you are telling me now, General Brown, is that the 
requirement is now 30 days.
    General Brown. The requirement is no later than 30 days.
    Mr. Sali. But it could be up to the full 30 days.
    General Brown. And I'm not sure why the regulation is 
written that way. I am assuming there could be some extenuating 
circumstances that they give you the 30 days, but I think the 
requirement is to notify the family immediately, but no later 
than 30 days.
    Mr. Sali. Immediately following what?
    General Brown. Immediately following the beginning of an 
investigation.
    Mr. Sali. But that could be up to 30 days later?
    General Brown. I believe that's what the regulation says, 
and I'd be glad to take it for the record and provide that Army 
regulation to you.
    Mr. Sali. OK. I would appreciate it if you would do that.
    It seems like we're fighting over about 6 days here in 
difference in time. If you are saying that it could be--within 
30 days, no longer than 30 days would meet the current 
regulation; is that correct?
    General Brown. Well, I think it goes back to my earlier 
point that it doesn't matter what the regulation says, it has 
to be followed. So if there were errors made in the execution 
of that policy or there were people that didn't understand that 
was the policy, then that is where there may be a problem.
    Mr. Sali. The regulations that were in place at the time 
were followed; is that correct?
    General Brown. I don't know. I'd have to go back and see 
what--the regulation that we are talking about that is the 
current regulation, as I understand it, was enacted in 2003.
    Mr. Sali. Can you let me know about that?
    General Brown. I will be glad to.
    Mr. Sali. Mr. Chairman, I yield the balance of my time to 
the gentleman from California.
    Mr. Issa. I thank the gentleman. I just want to--I hated to 
get into Vietnam, but we have gotten into it. I want to go 
through a couple of quick things.
    During Vietnam, we drafted men and women. Several of you 
are Vietnam vets. At that time, as I understand it, we were 
drafting those who didn't go to college, those who couldn't get 
deferments, that was a war of the poor and a war of the 
minorities. At the time, that was the way it was said, and as 
someone who entered the service in 1970, I saw it that way.
    Today, isn't it true that every man and every woman joins 
the military voluntarily, we have no draftees left on active 
duty, they have all either enlisted or reenlisted; that every 
one of these people for the first time is somebody who went to 
war knowing they were going to war?
    Certainly Corporal Tillman enlisted knowing that our Nation 
was at war. Isn't that true?
    And I appreciate--General Brown? I have just two quick 
questions. One as a Vietnam era vet, a Vietnam vet actually.
    General Brown. Right.
    Mr. Issa. You remember the military where, if you were a 
rich college kid, you didn't go for the most part; and we had 
the minorities as draftees, the poorest as draftees, versus 
today every man and woman enlisted, and we have no draftees on 
active duty.
    General Brown. Correct.
    Mr. Issa. I wanted to make clear that Corporal Tillman, 
like every one of the men and women serving today, did so 
voluntarily.
    The Vietnam War was not a panacea of the right way to do 
it. What we're doing today is the right way, and I think you 
would all agree this is the right way to run the modern 
military as volunteers, knowing volunteers.
    General Brown. Sir, it is my opinion--I served in the 
draftee Army, and I served in Vietnam; and I also served in the 
all-volunteer Army, and the all-volunteer Army is better.
    Mr. Lynch [presiding]. The panelists are allowed to answer 
the gentleman's question if they would like to elaborate.
    OK. The Chair yields himself 5 minutes.
    Gentlemen, I want to extend my thanks for your willingness 
to come forward and help the committee with its work. I want to 
acknowledge the Tillman family, and my heart goes out to them 
for having to relive this every time a hearing is held.
    Now, a number of us, including Mr. Murphy, Mr. Welch, Mr. 
Shays and others, have been out to the area where Mr. Tillman 
was ambushed. And we certainly appreciate the complex battle 
space, as you have described it, and we can understand that 
there was some chaos in this firefight.
    However, I do want to follow the time line here because 
Chairman Waxman spoke earlier about the testimony of Specialist 
O'Neal. And as you may remember, Specialist O'Neal was with 
Corporal Tillman on the ground there, on that canyon road near 
Manah. And Specialist O'Neal went back to Salerno, just north 
of that area, a couple of days after the firefight, and 
actually he wrote a witness statement in the immediate 
aftermath of Corporal Tillman's death that made it quite clear 
that this was a case of friendly fire.
    But then something happened. Someone rewrote that statement 
and the revised version--we had Specialist O'Neal in, and we 
showed him the statement and we asked, Did you write this part? 
No, I didn't. Did you write this part? No, I didn't.
    So there was a drastic revision between what the eyewitness 
wrote and what eventually went to the press and went to some of 
you. And we don't know if it went to the President or not, but 
it served at least in part as the basis for the Silver Star 
citation. We know that.
    And while we understand the chaos that might have occurred 
during this firefight, this rewriting, this revision, happened 
after the fact, after the smoke had cleared. And I can 
appreciate the frustration of some of my colleagues who feel 
that something else is going on here, and we're not sure what.
    Some people think it was a mix-up, not a cover-up; and I 
can certainly appreciate them feeling that way. But we have had 
an opportunity, all of us, a lot of us, to go out there and 
also observe the high excellence of our military, the high 
excellence of our military officers and folks in uniform. And 
they have performed brilliantly. And yet here we have this 
major, major disconnect between what the people on the ground 
observed and recounted, and then the report that gets out to 
the press and the public and to the family.
    And another issue that is confusing is the P-4 memo. It was 
written explicitly to warn the senior defense officials and the 
President that Pat Tillman, it was highly possible that he died 
of friendly fire. But from the testimony today it would seem 
that no one passed this information to either Secretary 
Rumsfeld or the President. And knowing what I know about the 
best of the military, I find that mind-boggling, just stunning, 
that this happened.
    I want to ask you--because I haven't heard a good 
explanation today, I have to say that, and I am trying to pull 
all of this together--we talked about six different 
investigations. Can anybody on this panel give me an answer, 
how that happened, that the specialist, on-the-ground 
eyewitness right beside Corporal Tillman, right in the unit, 
wrote an accurate description of what happened indicating 
friendly fire; and yet downstream we follow that time line, we 
in the Congress and the American people got a different story. 
And I need to know the answer to how that happened.
    That's why we are having--we owe this to the family. And I 
understand that there was some element of this that folks 
wanted to honor the memory of Corporal Tillman in the highest 
tradition of the military. And he was a hero; the minute he put 
on that uniform, he was an American hero, and nothing changes 
that.
    But we also owe it to our servicemen to accurately account 
for them. And we owe it to their families who offer up their 
sons and daughters to serve this country.
    So I ask you, can anybody here on this panel explain how 
that happened? Explain to the American people how that 
happened?
    Mr. Secretary.
    Mr. Rumsfeld. I--needless to say, it happened the way 
you've described it and the way the various investigations have 
reported it. It happened in the field that somebody took 
somebody else's words and altered them. I have no idea who did 
it. I have no idea what their motive might have been.
    I had no knowledge that had happened.
    Mr. Lynch. General Myers.
    General Myers. It would be extremely difficult to divine 
that. I would really like to know, obviously, why somebody 
would do that. I don't have any idea.
    And certainly it is the way you described it. I haven't 
seen how the words were altered, but it is inappropriate and 
inexcusable. But I don't know why.
    Mr. Lynch. General Abizaid, good to see you again, sir.
    General Abizaid. Sir, it is good to see you as well.
    It is very difficult to come to grips with how we screwed 
this thing up, but we screwed this thing up. It was clear to me 
on April 28th, when I talked to the platoon leader who was 
Corporal Tillman's platoon leader, that he did not think of it 
as being anything other than an enemy action. We didn't talk 
long about it. He had been wounded. But he didn't give any 
indication of friendly fire at that time.
    Clearly, General McChrystal knew by the 29th that there was 
a high probability, as he described in his message, that there 
was friendly fire. The message that General McChrystal sent to 
me, which was delivered late for problems that took place at my 
headquarters--as a result of problems that took place at my 
headquarters, undoubtedly delayed the information being relayed 
to the chairman in the manner that it should have been.
    When I discovered the problem, I relayed it to the chairman 
in as timely a manner as I could, given the circumstances. But 
it was clear that somewhere between the 29th and the--and the 
period where I notified the chairman that this P-4 just hadn't 
gone to me. It had gone to General Brown, it had gone to the 
Department of the Army, and it was my supposition that the 
Department of the Army was acting on the notion that friendly 
fire had occurred, which can probably be the reason that the 
chairman accounts for--and again this is supposition on my 
part, it is not a fact, I don't know what happened--which is 
why the chairman recollects having heard it as early as the 
30th or the 31st, whatever day it happened.
    Again, no excuses can be offered, but I can tell you a 
couple of facts. General McChrystal reported the incident in a 
forthright and in a timely fashion.
    That the information flowed poorly through the chain of 
command to include me is a problem of the chain of command, 
both administrative and operational. It should have been 
handled better and it wasn't. From that, a lot of other bad 
things may have flowed.
    But it is clear that all along fratricide was called as 
early as the April 29th, and that on May 28th, we conclusively 
stated it was fratricide, a report that I rendered to the 
chairman and to the Secretary.
    In terms of fratricide investigations, by the way, that's 
not a slow investigation. That's a fast investigation. In 
looking back, of how we go about investigating these things 
after they've happened, it may seem slow; but in my experience 
with a lot of fratricides, it went probably faster than most.
    Mr. Lynch. Thank you.
    General Brown, any conclusion?
    General Brown. Sir, I'd just say, as I mentioned earlier, 
as Secretary of the Army Geren said, it could not have been 
more poorly handled. I think it was a process--it is a 
difficult process to start with, and it was just very poorly 
handled.
    When I got the P-4, I made the assumption--and probably a 
bad assumption, since I was an ``info'' addressee and not the 
``to,'' that flow of information would flow through the chain 
of command. It would have been simple for me to pick up the 
phone and call the General. I didn't.
    I did respond to the P-4, back to General McChrystal. But, 
quite frankly, I just made the assumption--a bad assumption 
now, I know--that normal P-4 traffic moves pretty fast, that 
would go to the chairman immediately.
    So it's unfortunate it was poorly handled, and 
unfortunately it is the Tillman family that had to pay the 
price for it.
    Mr. Lynch. Thank you, sir.
    The Chair recognizes the gentleman from Connecticut, Mr. 
Murphy, for 5 minutes.
    Mr. Murphy. Thank you, Mr. Chairman. I understand we have 
votes pending, so I will be brief.
    Gentlemen, thank you very much for being here today. I 
joined Representative Lynch and some others of our colleagues 
in a trip earlier this year to Iraq and Afghanistan; and 
frankly, as someone who has never worn the uniform or fired a 
gun or been shot at, I left there with a deep and, frankly, 
unconditional sense of appreciation for what our men and women 
are doing there. And I thank you for your role in leading them.
    My question is this: It is my understanding that the 
Pentagon regulations require that a family be notified that a 
fratricide investigation is pending even before the official 
results are concluded. And I have a little bit of trouble--and 
I will present the question first to General Myers--with the 
contention that simply because the malfeasance wasn't in your 
direct chain of command that the leaders of the military didn't 
have an accompanying personal or moral responsibility to act on 
what they knew was misinformation being given to the public--
and certainly, if not misinformation, a complete lack of 
information given to the family.
    I know this is a complex question for military leaders when 
you have a responsibility to break outside of the chain of 
command, when you know that something is being miscommunicated 
or you know that something is being uncommunicated. I will ask 
it of General Myers first.
    There are a couple of weeks, 2 or 3 weeks, that you have 
been informed that there is a fratricide investigation going 
on. The family has not been notified. There are Sports 
Illustrated articles and much public awareness of the initial 
conclusion of death of Mr. Tillman. As Chairman of the Joint 
Chiefs of Staff, in retrospect, do you feel that you had a 
personal or moral responsibility to alert the family even 
though the chain of command may not have dictated that it was 
your responsibility?
    General Myers. I think it would have been absolutely 
irresponsible of me to interfere with the Army procedures, 
frankly. First of all, they are not Pentagon regulations; they 
are Army regulations. The Army was the one that had the 
regulations that said we have to notify the family as soon as 
we know of the possibility.
    And frankly, with the investigation ongoing, what I was 
concerned about was exerting any kind of undue command 
influence if this ever got to UCMJ, if it ever got to the 
Secretary's desk; if he ever said, What do you think, which 
would have been the only reason I would ever look at it--if the 
Secretary would say, Give me your opinion on this.
    You want to stay out of those matters so that you cannot be 
used by some defense attorney that, Gee, we have had Myers 
saying this and the Secretary saying this; therefore, my client 
who is accused of wrongdoing is not guilty. There is obviously 
command influence.
    So it didn't occur to me at the time, clearly. I knew there 
was an investigation ongoing. I thought that was appropriate. I 
didn't know what had been told to the family or not been told. 
I just wasn't aware.
    I mean, it sounds harsh, and it is harsh, but the reality 
is there is a lot of things going on, and this--Corporal 
Tillman's death was significant, but it wasn't the kind of 
issue that occupied a whole lot of time. As John said, we were 
working on the battle of Fallujah. We had a myriad of issues. 
Abu Ghraib had just broke; we spent a lot of time in the media 
with Abu Ghraib. There were a lot of issues taking our 
attention.
    I think it would have been irresponsible for the chairman 
to get involved in what are Army matters. I would have to 
override the Secretary of the Army, acting Secretary. That 
would be something that would be totally inappropriate, or get 
into General Schoomaker's, Chief of the Staff of the Army's, 
business.
    Mr. Murphy. I appreciate there were a lot of pressures 
occupying your time and occupying an immense amount of the 
public's time. There were some things that many, many people 
were paying attention to. Do you feel, in retrospect, that you 
should have asked during those intervening weeks whether or not 
the Tillman people knew?
    General Myers. No, the matter should have been handled by 
the Army. And it would not--I mean, I don't think it would have 
occurred to me to say, Gee--I mean, this was not--
unfortunately, not the first fratricide, not the first death.
    Even if it is not fratricide, there are issues with the 
family members that the services are handling. And I don't 
think it is my position, certainly not in any of the statutes 
or even morally, I believe, to get involved when other people 
are trying to handle that.
    I mean, that's the services' business, and it is pretty 
explicit. It would have been very unusual for me to ask those 
kinds of questions, and frankly, it didn't occur to me.
    Mr. Murphy. General Brown, do you regret not looking back, 
not asking more questions about what the family knew? Do you 
feel you had an obligation, whether or not it was within the 
direct chain of command, to intervene and try to make sure--I 
am concerned mostly about the family, I think. As the family 
has noted, this was a fraud perpetrated on the American public 
as well. But specifically, in relation to the family, why 
weren't more questions being asked within the chain of command 
of whether or not the family was being told?
    General Brown. What I would say is that the Army ran this 
investigation. They also run the casualty notification process, 
and so do it routinely. And so when you see them doing the 
actions that they are supposed to be doing, I was not 
questioning them every day, were you doing every step in the 
process.
    Quite frankly, when I found out there was an issue that the 
family hadn't been notified, by asking the question--which was 
before the press release, I asked the question, had the family 
been notified by the Army and our Army component, and I found 
out that they had not.
    And then we tried to take actions to help facilitate 
getting the family notified before the press release came out, 
when I did ask the question.
    Mr. Murphy. Thank you, Mr. Chairman.
    Chairman Waxman [presiding]. Thank you Mr. Murphy.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. And I appreciate the 
witnesses' presence and your endurance at this time. Let me get 
back to the P-4 discussion, quick question.
    P-4 is the classified memo to those that the memo has been 
written to; is that correct?
    General Abizaid. That's correct, sir. I mean, it is--in the 
channels that this was sent, it was actually sent in very 
highly classified channels.
    General Myers. But a P-4 can be unclassified.
    Mr. Honda. So it was an important memo?
    General Abizaid. There are a lot of different P-4s that are 
sent around, but it is usually commander-to-commander 
communication.
    Mr. Honda. And these are for the eyes, including those who 
are cc'd?
    General Brown. I'm sorry. I didn't understand the question.
    Mr. Honda. It is also not only for--the memo is directed to 
a couple of people, but someone said that the others were cc'd.
    General Brown. Right.
    Mr. Honda. And that also means that this was meant for your 
eyes also?
    General Brown. Right.
    Mr. Honda. I'd like to read the last sentence of the P-4 
memo and ask for a clarification of the gentlemen here.
    In this sentence, General McChrystal writes that he feels 
it is essential that the three generals receive information 
about Corporal Tillman's death, and here is why.
    He says, ``In order to preclude any unknowing statements by 
our country's leaders which might cause public embarrassment if 
the circumstances of Corporal Tillman's death becomes public . 
. .''
    He says, ``if the circumstances of Corporal Tillman's death 
are ever made public.'' For the record, were you involved in 
any discussion about withholding information about Corporal 
Tillman's death from his family or the American public?
    Second question: Was there any conversation that the 
information about his death would never be released to his 
family or the public?
    General Brown. There was no conversation about his death or 
fratricide ever not being released. There was never a 
discussion on that.
    The only discussion I ever heard--and we weren't the 
investigating body or the notification and next-of-kin 
responsible agency--was the normal assumption that people were 
waiting until the investigation was concluded before the family 
would be notified. OK.
    So then that is--that is routinely understood. And as a 
matter of fact, it is as I understand from this hearing this 
morning, that is still current Marine Corps policy, that the 
investigation is completed and then the family is notified.
    So that information would have been protected at that time 
so that it was not released to the press, so that the family 
would not wake up and find it in the press prematurely, before 
the investigation was completed and signed off by the combatant 
commander.
    General Abizaid. Yes, sir, there was never any intention at 
any level to keep the idea that it was fratricide from either 
the family or the public. It was clear that it would be 
disclosed at the appropriate time, as decided by the Department 
of the Army.
    Mr. Honda. General Myers.
    General Myers. I agree with General Brown.
    Mr. Honda. You are saying that there were no discussions, 
or you were not involved in any discussions about withholding 
information from the family or the public?
    General Myers. I was not involved in any discussions where 
withholding information from the family or the public, or 
anybody, ever came up.
    Mr. Honda. OK.
    General Myers. I was not.
    Mr. Rumsfeld. Nor was I.
    General Brown. Sir, if I could go back to that for just a 
second, when we get a casualty notification, which in my 
headquarters we will get for every one of our casualties, we 
are very careful to protect the names of the individuals, and 
the individuals, until the family notification of next of kin 
has taken place. So that would fall into the same category.
    Mr. Honda. The P-4 was written April 29th, 7 days after the 
incident. So the 7 days ensuing, for 7 days there wasn't an 
investigation, and there was a report by Mr. O'Neal; is that 
correct?
    General Brown. I don't know. A report by Mr. O'Neal, I'm 
not familiar with.
    Mr. Honda. He is the gentleman who wrote the initial 
report.
    General Abizaid. I know there was an initial 15-6 that was 
initiated, but I would have to look at the report to say what 
date it was initiated. Perhaps we could find that information.
    Mr. Honda. And the contents of that first report were 
changed, and it appears on the P-4 as it has been changed. Are 
you aware of that? Or is that a correct statement?
    General Brown. Just to be clear, could you restate that 
statement again? And I think we will have better chance of 
answering it.
    Mr. Honda. There was previous testimony that there was a 
written report by a combatant next to Mr. Tillman, who wrote 
down the events, the accurate events of his death. And I 
understand through the testimony today that has been changed 
and that change is reflected in the P-4. Is that a correct 
statement?
    General Brown. I don't know.
    General Abizaid. Here is what I do know, to make sure that 
we are all talking about the same dates.
    The incident took place on the 22nd. The chain of command, 
through me, was notified of Corporal Tillman's death.
    There was a P-4 sent on the 29th.
    The first 15-6 report was completed on the 4th of May, and 
it was deemed not sufficient by General McChrystal, and another 
15-6 officer was appointed on the 8th of May.
    And on May 25th, that report reached my headquarters, and 
on May 28th, I approved that report.
    Those are the dates as I know them.
    Chairman Waxman. Thank you very much, Mr. Honda. I 
appreciate your joining this committee for this hearing and the 
previous one. You are not a member of the committee, but I know 
of your strong interest in the concern about Corporal Tillman.
    Could I just ask this question? Is it--on how many 
occasions would you get a P-4 memo saying, Let the President 
and the Secretary of the Army and the Secretary of the Armed 
Services know about a certain fact, get it to them because we 
want to help them avoid embarrassment?
    Have you ever received a P-4 like that, General Brown.
    General Brown. Never, sir.
    Chairman Waxman. General Abizaid, did you ever receive a P-
4 like that?
    General Abizaid. Yes, I've received some very interesting 
P-4s; and sometimes they would say, Make sure the President 
knows, or make sure this happens or that happens.
    There is an interesting thing about the P-4 that says, 
Deliver during normal duty hours; and so again General 
McChrystal did exactly the right thing. He sent a timely 
message in a timely fashion through the most secure channels.
    And, again, it went to Tampa. I was forwarded. It didn't 
get to me in a timely fashion, forward. That's a problem that 
was strictly in my command.
    But, again, when I told the chairman, I did not tell the 
chairman in order that the chairman would run to the Secretary 
and then run to the President. I told the chairman so he would 
know, and I explained to him in general terms the basic 
information in the P-4.
    Chairman Waxman. Did you tell him that this was something 
that we ought to--he ought to let the civilian authorities in 
the White House, even the President, know this information to 
avoid embarrassment?
    General Abizaid. I don't know that I used those words, but 
I said that it was important that the leadership know. And 
between the chairman and me--I mean, it's clear that the 
leadership up above us is the Secretary and the President.
    Chairman Waxman. Yes. See, the issue is not just failure to 
let the family know; there is an issue of whether there was a 
failure to follow the routine way things are handled, to let 
the President know, to avoid embarrassment, let the President 
know and our Nation's leaders know.
    General Myers, have you gotten P-4 memos that asked you to 
let the President and our national leaders know something?
    General Myers. I probably have.
    Chairman Waxman. And when you get that kind of information, 
what do you do with it?
    General Myers. You have to put your judgment on it, because 
people are recommending to you what they think is appropriate, 
and you have to put your judgment on it.
    Like I said, in this case, what would have been logical 
would have been to inform the Secretary. I can't recall that I 
did that. I don't know. I don't have any documentation that 
says I did that.
    But that would have been a logical thing to do when I got a 
P-4 like this, to say, Mr. Secretary, you know this has now 
gone from ``Corporal Tillman was killed by enemy fire'' to 
``possible fratricide.'' But that would have been the logical 
thing to do.
    I can't tell you that I did it, because I just don't recall 
whether I did it or not.
    Chairman Waxman. OK. Well, let me conclude the hearing by 
indicating the facts that General Myers and General Brown knew 
about the friendly fire issue at the end of April.
    General Abizaid learned on May 6th.
    Secretary Rumsfeld learned on May 20th.
    All of these are the senior leaders that knew before the 
public and the family----
    Mr. Rumsfeld. Could I correct that?
    Chairman Waxman. Yes.
    Mr. Rumsfeld. I want to make sure this is precisely 
accurate. I do not believe I testified that I learned on May 
20th, and if that impression has been left, I don't want that 
left.
    My testimony is that I do not recall; that is the letter I 
gave to the IG. I was told that a person was in a meeting after 
May 20th when I was informed. But that is--I just simply do not 
know when I first learned of the possibility of fratricide.
    Chairman Waxman. I appreciate that correction.
    General Abizaid. And, sir, if I may, I also wanted to make 
sure that the 6th is a logical day. It is not ``the'' day; the 
day is somewhere between 10 and 20 days after the event. It's 
the best that my staff and I could come to a conclusion on at 
this point.
    Chairman Waxman. You were all very busy. There is no 
question about it.
    General Brown. Sir, one other thing, if I could interrupt 
also to correct.
    Your statement was that I knew about the friendly fire, I 
knew that there was an investigation ongoing, the potential for 
friendly fire.
    General Myers. That goes for me, too.
    General Abizaid. And for me, as well.
    Chairman Waxman. Well, you all knew or didn't know within 
that timeframe. But it appears that all of you had some 
indication before the ceremony where the world was being told 
that Corporal Tillman was killed in the line of duty. He was 
getting the Silver Star. It was a memorial service where this 
information, this misinformation, was given out.
    And you have all admitted that the system failed. So I just 
think that the public should have known, the family should have 
known earlier who was responsible. But--none of you feel that 
you personally are responsible, but the system itself didn't 
work.
    Ironically enough, the President could have called you all 
in and said, Why didn't I know about this when there was a P-4 
memo? But somehow or another it seemed like the President 
avoided embarrassment as well. So maybe somebody did know at 
the White House that this was likely to be friendly fire, on 
more thorough investigation.
    You have been here a long time. I appreciate your taking 
the time to be with us. We are obviously trying to find out 
what went on and who had responsibility, who dropped the ball.
    The system didn't work. Errors were made. That's too 
passive.
    Somebody should be responsible, and we're trying to figure 
that out.
    That concludes our hearing today, and we stand adjourned.
    [Whereupon, at 1:33 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
